<html>
<title> - PROPOSALS TO DOWNSIZE THE FEDERAL PROTECTIVE SERVICE AND EFFECTS ON THE PROTECTION OF FEDERAL BUILDINGS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  PROPOSALS TO DOWNSIZE THE FEDERAL PROTECTIVE SERVICE AND EFFECTS ON 
                  THE PROTECTION OF FEDERAL BUILDINGS

=======================================================================

                                (110-26)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 18, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
34-797                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY, Pennsylvania  Virginia
TIMOTHY J. WALZ, Minnesota           CHARLES W. DENT, Pennsylvania
STEVE COHEN, Tennessee               JOHN R. `RANDY' KUHL, Jr., New 
JAMES L. OBERSTAR, Minnesota         York
  (Ex Officio)                       JOHN L. MICA, Florida
                                       (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi
Comparison Chart for Current FPS Force and DHS Downsizing Plan, 
  prepared by T&I Committee Majority Staff.......................  xiii

                               TESTIMONY

Brown, Inspector General Michael J., Federal Protective Service, 
  Seattle, Washington............................................    13
Canterbury, Chuck, President, Fraternal Order of Police..........    50
Jackson, Hon. Michael P., Deputy Secretary, Department of 
  Homeland Security..............................................    33
Nowak, Corporal Stanley, Federal Protective Service, Kansas City, 
  Missouri.......................................................    13
Proctor, Jr., Inspector Sterling, Federal Protective Service, 
  National Capital Region........................................    13
Ward, Officer Jim, Federal Protective Service, New York City, New 
  York...........................................................    13
Wright, David, President, American Federation of Government 
  Employees, Local 918...........................................    50
Wu, Hon. David, a Representative in Congress from the State of 
  Oregon.........................................................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    57
Costello, Hon. Jerry F., of Illinois.............................    58

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Canterbury, Chuck................................................    61
Jackson, Michael P...............................................    66

                       SUBMISSIONS FOR THE RECORD

Wright, David, President, American Federation of Government 
  Employees, Local 918, Briefing on the Federal Protective 
  Service: Transition to FY 08 Budget, Prepared for FPS Regional 
  Directors......................................................    80

[GRAPHIC] [TIFF OMITTED] T4797.001

[GRAPHIC] [TIFF OMITTED] T4797.002

[GRAPHIC] [TIFF OMITTED] T4797.003

[GRAPHIC] [TIFF OMITTED] T4797.004

[GRAPHIC] [TIFF OMITTED] T4797.005

[GRAPHIC] [TIFF OMITTED] T4797.006

[GRAPHIC] [TIFF OMITTED] T4797.007

[GRAPHIC] [TIFF OMITTED] T4797.008



HEARING ON DOWNSIZING THE FEDERAL PROTECTIVE SERVICE AND ITS EFFECT ON 
                  THE PROTECTION OF FEDERAL BUILDINGS

                              ----------                              


                       Wednesday, April 18, 2007

                   House of Representatives
    Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:10 a.m., in Room 
2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [chairwoman of the committee] presiding.
    Ms. Norton. The Committee is about to begin with an offer 
of my gratitude and welcome to all of the witnesses who have 
agreed to appear before the Committee this morning.
    The Committee and our subcommittee are particularly 
interested in the status and condition of the Federal 
Protective Service, the police force that protects 2 million 
Federal employees and judges, and $500 billion of Federal 
office space in the post-9/11 period.
    Congress was quick to shore up its own security after 9/11, 
bulking up the Capitol Police by approximately 50 percent since 
then. The White House was the first to go on a super-vigilant 
virtual lock-out mode following the Oklahoma City attack with 
the shutdown of Pennsylvania Avenue, putting the White House 
nearly out of reach for visitors and terrorists alike.
    However, security experts report that when only some 
targets get concentrated attention, softer targets become 
harder and more vulnerable. Therefore, it is fair to ask what 
is being done to afford necessary protection and security for 
Federal employees nationwide located in every State and in most 
congressional districts, many of whom protect the homeland.
    The Federal Protective Service is the Federal police force 
on the front lines to protect millions of civil servants, 
judges, and visitors to Federal sites.
    After the Oklahoma City bombing, I supported the Department 
of Justice Building Vulnerability Report and particularly noted 
the report's observations regarding the ability of the FPS to 
provide, and I am quoting, ``security service for much of the 
Federal workforce.''
    In 2002, along with several members of this Committee, I 
also supported moving the FPS from the General Services 
Administration to the newly created Department of Homeland 
Security. We had high hopes that the theory of full integration 
of the FPS law enforcement expertise into the broader fabric of 
national security would come together to enhance overall 
security.
    However, only recently, as a member of the Homeland 
Security Committee, I felt obliged to offer an amendment to the 
bill which authorized the Department of Homeland Security. This 
amendment would have the effect of a cease and desist order on 
activities to downsize the FPS until the GAO issues its report 
on the status of FPS and its funding sources. This amendment 
was passed without opposition because of distressing concerns 
about huge structural changes in the FPS that could lead to new 
terrorist and law enforcement vulnerability in Federal 
facilities.
    As you are aware, the FPS mission continues to be grounded 
in force protection, but now includes new security duties at a 
time when, ironically, the number of police officers has been 
diminishing. In addition to traditional law enforcement duties 
plus, of course, answering questions, assisting citizens, and 
helping Federal employees, today's FPS officer is the first 
line of defense against terrorists and other new criminal risks 
and incidents in Federal buildings, providing comprehensive 
intelligence gathering through its unparalleled network of 
State and local police, providing building vulnerability 
assessments, recommending appropriate security threat 
countermeasures and responding to bomb threats, vandalism, and 
mass demonstrations.
    It is of special interest to this Committee and should be 
of even greater interest to DHS that FPS has had a close and 
effective working relationship with FEMA, another agency under 
our Committee's jurisdiction. FPS provides emergency police and 
special security services to support FEMA during natural 
disasters, as well as during terrorist and criminal actions. 
For example, on August 29th, 2005, the day Hurricane Katrina 
hit the Gulf Coast, 29 FPS law enforcement personnel deployed 
into New Orleans to provide support to FEMA and ensure security 
and order in Federal facilities. Within 24 hours, one day after 
the major levee breaks, FPS had deployed 113 personnel into the 
affected region, and within 72 hours 211 police officers and 
support personnel. In addition, three command vehicles were 
deployed in strategic locations by the next day which enabled 
FPS officers to maintain radio communications over the Gulf 
area.
    These personnel assets and command vehicles assisted the 
establishment of many operations that were of central 
importance. Moreover, because of the overwhelming effect 
Katrina had in the region and the total breakdown of social 
order in New Orleans proper, the mission of FPS expanded in 
directing police in the area as well as providing humanitarian 
assistance on an individual basis, in many instances personally 
handing out food and water.
    On another tragically historic day, September 11th, 2001, 
FPS officers assigned to the mobile units around the Federal 
courthouse in Lower Manhattan, immediately responded to the 
initial crash and other FPS officers ran the six blocks to the 
World Trade Center to assist in the evacuation efforts. By 6 
p.m., officers from Region 1-New England were on site, 
including the chief of operations, two special agents, and 
several uniformed officers, to assist in the search.
    These examples of professionalism, of police peace officer 
professionalism, have been the norm for FPS officers throughout 
its history as the only uniformed law enforcement presence in 
DHS. All should be proud of the Federal Protective Services' 
capabilities and record.
    The recent transformation initiative begins a major 
departure from the core FPS missions, however. Tellingly, last 
fall, ICE began the process of recruiting a new FPS director 
and posted two job announcements for the position, one 
requiring a law enforcement background and the other requiring 
managerial experience. I immediately questioned the wisdom of 
advertising for a law enforcement job without requiring law 
enforcement experience and credentials. After all, the lessons 
from the Katrina tragedy, which shook DHS to its core, had much 
to do with unprofessional staffing.
    It is therefore particularly surprising that the position 
descriptions for both announcements were virtually identical 
except for one vital skill. To qualify for the law enforcement 
announcement, the director would be required to develop plans 
to respond to criminal incidents and emergencies occurring on 
Federal property, as well as supervising senior law enforcement 
officers in activities such as investigating incidents, 
disseminating terrorism-related intelligence, and conducting 
joint terrorism task force operations. Despite the fact that an 
individual with all these skills and more was identified as 
``best qualified'' for the job on the job announcement, ICE 
selected an individual who qualified third on the managerial 
analyst posting. It is as if a jurisdiction would advertise for 
a police chief who had no law enforcement expertise.
    The shift from a director with true law enforcement 
experience to one that requires general management skills is 
consistent with the change in ICE's new vision of the role of 
FPS. In eliminating the 290 police officers, there will be no 
officers to meet this role as written ``to interrogate suspects 
who display violence and irrational temperament, seek out and 
question witnesses and suspects, preserve the peace, prevent 
crimes, arrest offenders, and provide crime prevention guidance 
and police assistance during emergency situations.''
    Instead, the new mission of FPS relies on inspectors whose 
jobs include such duties as--and I am quoting--``presents 
employee awareness programs, conducts crime prevention studies, 
conducts physical security surveys, and coordinates minor 
repairs of electronic security systems.''
    What, then, is to be done about ``investigating criminal 
incidents, disseminating terrorism-related intelligence, and 
conducting post-terrorism force operations,'' the job 
description of the FPS officer? Who will perform these 
functions that are related to both traditional law enforcement 
and to the new terrorist responsibilities of the FPS in 
protecting Federal employees, visitors, and property?
    The Chairman has mentioned on occasion to me the drastic 
reduction in the number of uniformed officers in the 
transportation plan. In the absence of a Federal police 
presence, ICE expects local law enforcement agencies to become 
the primary protectors of Federal property and employees. ICE 
claims that it has Memorandums of Understanding--but we have 
been unable to obtain these memorandums--MOUs with 31 city and 
local agencies allow for reciprocal services; local law 
enforcement can assist FPS on Federal property and FPS can 
assist local law enforcement in areas adjacent to or near 
Federal property. Of course, once FPS eliminates its police 
officers, these MOUs will be worthless. They require 
reciprocity and FPS can't reciprocate if it doesn't have police 
officers.
    Moreover, anyone familiar with local law enforcement knows 
how unlikely these agencies are to take on the new Federal 
responsibilities left behind by vacating Federal police 
officers. On January 24th, 2007, the National Council of Mayors 
reported ``alarming growth,'' their words, in violent crimes in 
their cities, which have to come first, obviously.
    At the same time, Federal funding for local law enforcement 
programs has been slashed by more than $2 billion. To now ask 
these same local officers to assume additional Federal 
responsibilities for protecting Federal employees and property 
is adding insult to injury and, worse, unlikely to occur. 
Therefore, is adding risk and possible danger.
    Moreover, these extra responsibilities will be significant. 
In the past six months there have been more than 20,000 
incidents involving FPS officers on Federal property. These 
included 1,363 accidents, 849 thefts, 33 aggravated assaults, 
177 incidents involving weapons and explosives, 852 fine, and 1 
criminal homicide. Most of these crimes were in cities high on 
the list for losing Federal Protective Service police 
protection.
    Who is prepared to trust the protection of millions of 
Federal employees, visitors, and property to local law 
enforcement, especially when the proposed plans leave FPS 
without peace officers sufficient to keep their part of the 
deal?
    We are eager, most eager, to hear what the witnesses may 
have to tell us in order to allow us, as a Committee, to review 
the plan in keeping with oversight responsibilities for FPS 
that we have not exercised, not once, since FPS was absorbed 
into DHS. This Committee has both the opportunity and the 
responsibility to require adjustments that may be necessary to 
ensure the safety and security of Federal agencies.
    I would like now to turn to the Ranking Member of the full 
Committee, Mr. Mica.
    Mr. Mica. First of all, good morning, and I want to thank 
both Ms. Norton and Mr. Graves for holding this hearing on the 
Federal Protective Service, and thank our witnesses for being 
here today.
    As we have all been reminded by the tragic events of the 
last 24 hours at Virginia Tech, our public facilities, whether 
they are educational or Federal buildings, have unfortunately 
been the sites of some horrific violence in the past, and it is 
very timely that we hold this hearing today. I have the 
greatest and deepest respect for our Federal Protective Service 
and the men and women who serve us in that capacity. It is an 
important responsibilities and, again, we are reminded of it by 
the events we have all unfortunately seen.
    Government-owned and occupied facilities have been attacked 
at home and abroad, with deadly results sometimes, and it is 
our responsibility in Congress to make certain that we remain 
vigilant. As such, it is entirely appropriate for the Committee 
to continue its oversight of the Federal Protective Service and 
also our plans for protecting our Federal buildings. Our 
Transportation Committee has had a long history of protecting 
Federal agencies through physical security measures and also 
with the men and women of the Federal Protective Service. We 
have provided literally billions of dollars to locate agencies 
out of harm's way where possible, design buildings against 
progressive collapse, and install blast-proof windows.
    When it comes to the Federal Protective Service, we have 
always supported its law enforcement mission and it is 
important that we continue to do that. However, this is an 
interesting hearing, and I didn't know too much about the 
background until I was briefed on some of the problems that 
have been created when the Federal Protective Service 
transferred from the GSA to DHS, the Department of Homeland 
Security. In the process, the Federal Protective Service lost a 
significant amount of its funding.
    According to a GAO report, GSA had previously subsidized 
the Federal Protective Service by at least $139 million a year. 
Now that the Federal Protective Service lost that subsidy, 
maintaining current operating levels is very difficult. The 
Federal Protective Service needs either additional 
appropriations or we need to find a way to honestly and 
transparently subsidize those operations in light of the 
current situation we find ourselves in with the threat of 
terrorism and against violence against public buildings.
    As I understand the Administration's proposal, the Federal 
Protective Service is trying to close this budget gap by 
raising security fees and then also by making some cuts in 
personnel costs. Unfortunately, DHS was dealt not a very good 
hand here, and there have been some studies conducted and right 
now the current cost is right around 39 cents, I think staff 
told me--is that per square foot?--and they want to raise it to 
57 cents to meet some of those costs. There is actually a Booz 
Allen study that was conducted and recommended an increase, I 
believe, in the force from 1200 to 2700, which would increase 
the costs from 57 cents, which is proposed by the 
Administration, to an actual cost of around $1.69. That would 
really cause some problems but, again, the purpose of this 
hearing is to find solutions.
    I think that there are a number of approaches that we can 
look at today as a result of this hearing. We have got to find 
a way to provide the services, maintain the personnel level, 
and, if necessary, even increase those. However, we do face 
some challenges right now in the way DHS inherited this 
because, again, a portion of the funds in the past used by GSA 
were used in sort of cooking the books and obscuring the true 
cost of protecting Federal facilities. So we have inherited a 
very difficult financial situation. We need to find some 
creative solutions for getting additional funding to the 
agency. I have talked with our Ranking Member, Mr. Graves, and 
he is committed and our side is committed to finding a way to 
help the Federal Protective Service retain its employees, 
increase them, if necessary, and find the funding to do that. 
So I hope the testimony of our witnesses today will help us 
find solutions to resolve this problem.
    I yield back.
    Ms. Norton. Thank you very much, Mr. Mica.
    I would like to ask Mr. Oberstar to offer some remarks at 
this time, if he would be willing.
    Mr. Oberstar. Thank you, Madam Chair. I appreciate your 
making a very comprehensive statement at the outset, really 
framing the issue, while I was navigating traffic for the last 
hour.
    In reflecting on this hearing, 12 years ago this week 
Timothy McVeigh parked a rental truck with explosives in front 
of the Alfred P. Murrah Federal Building in Oklahoma City. A 
massive explosion tore through the north face of that building, 
killing 168 people, 19 children. On the heels of that tragedy 
is another unfolding in Virginia, just near us, and one of the 
victims--not a shooting victim, but a victim of the trauma, a 
young student at Virginia Tech, was also engaged in Columbine 
in the classroom where her classmates eight years ago were 
killed. She was telling her story this morning on network news.
    It reminds us of the extraordinary role of the Federal 
Protective Service, which is not a fly-by-night agency. It was 
started in 1790 by President George Washington, when the first 
Federal buildings were established, to provide protection. And 
our Chair has outlined the extraordinary reach of the Federal 
Protective Service to the 330-plus million square feet of 
civilian office space the Federal Government is responsible 
for.
    The evolution since absorption of FPS into the Department 
of Homeland Security, the evolution away from Federal 
Protective officers to contract employees brings back to my 
mind the situation in aviation security prior to September 11th 
and the horror stories of Argenbright, Huntley, and others. I 
served on the Pan Am 103 Commission. I wrote the first Aviation 
Security Act in this Committee room. I asked then for a Federal 
protective service as we have with the Transportation Security 
Administration. The Administration then wasn't willing to do 
that and we didn't have enough votes in the Congress to enforce 
it, but it sure happened with lightening speed after September 
11th; a huge turnover in the contract forces engaged by the 
airlines foreign employees, not American citizens, not having 
English language capability. So the contractor guard system in 
FPS, with 15,000 contract guards, is something of great concern 
to me.
    The Immigration and Customs Enforcement Agency, under which 
FPS has been assumed, itself said, in an analysis of their 
plan, risk assumed by transformation, which I quote--this is 
the agency itself examining FPS and the plan to contract out 
more and make changes in the operation--``There will be no 
proactive patrol to deter attack planning, to detect or deter 
suspicious criminal activity, only reactive response will be 
provided. There will be no response to calls for police service 
to protect Federal employees or visitors and investigate crimes 
at Federal facilities. There will be no night or weekend police 
response or service, no FPS presence in 50 current cities,'' 
meaning cities now served and protected by FPS. ``FPS explosive 
detection dog teams will be stationed only in the 18 largest 
cities.'' Ten cities will no longer have the capability. ``The 
largest reductions will be in New York and Washington, DC due 
to proactive activity elimination.'' I've never heard such 
bureaucratic garbage in my life. ``States with largest 
percentage reductions also include Connecticut, Maine, New 
Hampshire, and Wyoming.''
    I don't think it would give great comfort to the folks in 
Oklahoma City to know that that is what is happening to the 
Federal Protective Service in the aftermath of a tragedy that 
occurred there, and we have our distinguished colleague from 
the State of Oklahoma who is very familiar with that. I think 
the tragedy occurred during the time when Ms. Fallin was 
Lieutenant Governor of the State.
    So I am just very distressed about the role of contract 
guards. It depends on company and State law, it depends on the 
terms of the contract, and I don't think that visitors to or 
employees of Federal Government agencies, where there is a 
contract service, would be very comforted by the knowledge that 
if something occurs, if a gunman enters the building, that the 
contract service will be able to call 911. That is not the way 
we protect public facilities.
    I will withhold other comments because I want to get 
immediately to the testimony. I think we need to proceed. We 
have limited time because we have another hearing following 
shortly on the heels of this one. I thank members for their 
forbearance on opening statements, which will all be included 
in the record.
    Ms. Norton. Thank you very much, Mr. Oberstar.
    Going to the Ranking Member of the Subcommittee, Mr. 
Graves.
    Mr. Graves. Thank you, Madam Chairman.
    Chairman Oberstar's institutional knowledge in this 
Committee is renowned, and his ability to recall history is 
incredible, but I didn't know it goes all the way back to 
Washington. Did you help craft that too, Mr. Chairman?
    Mr. Oberstar. Well, let me say I was not there, in 
fairness. I was not there, but there were three guards hired at 
the request of President Washington.
    Mr. Graves. Thank you, Mr. Chairman, for holding this 
hearing. And I want to thank all the witnesses that are here 
today for coming in to talk to us about the Federal Protective 
Service. In particular, I want to thank two of our witnesses 
who are here today, who traveled all the way from Missouri, 
from my home State and from Kansas City. The first one is going 
to be Mr. Stanley Nowak. For coming in, I do want to thank him. 
He is a corporal with the Federal Protective Service's Region 6 
in Kansas City and he has been with the FPS since 1976. I also 
want to thank David Wright for his testimony today. David is 
the President of the National Federal Protective Service Union 
and is an inspector with FPS Region 6 in Kansas City, Missouri. 
He has been with FPS since 1986. These gentlemen are going to 
be providing testimony today based on their experiences, vast 
experience in the Federal Protective Service, and I thank them 
for being here.
    FPS is responsible not only for protecting our senior 
citizens from things like being robbed of their Social Security 
checks when leaving the Social Security Office, protecting us 
from something as simple as that to something as far-reaching 
and very important as being front line defense against any 
terrorism.
    The first attack on the World Trade Center, the Oklahoma 
City bombing, the bombings of the Cobart Towers in Saudi 
Arabia, the 1998 U.S. Embassy bombings in Kenya and Tanzania, 
and the September 11th attacks on the World Trade Center and 
the Pentagon have made it clear that Federal facilities are 
targets for domestic and foreign terrorism. We need to ensure 
that the security force responsible for protecting Federal 
facilities has the capability to handle all of these kinds of 
threats.
    This Committee has had a long history of trying to do just 
that. We have strongly shown our support for the inclusion of 
physical security measures in the construction of Federal 
buildings and courthouses across the Country. Additionally, 
over the past several Congresses, we have held hearings and 
marked up legislation to upgrade FPS and address the funding 
shortfall in its operating budget.
    Deputy Secretary Jackson testifies today on the 
Administration's proposal to address the chronic budget 
shortfall. The proposal raises security fees from 39 cents per 
square foot to 57 cents per square foot. The proposal also 
reduces FPS personnel from roughly 1200 to around 950 full-time 
employees. This proposed reduction of FPS personnel has raised 
a number of questions about the impact on Federal building 
security. As the Ranking Member of the Subcommittee that 
oversees Federal buildings, I am greatly interested in the 
security and the security of the Government workforce.
    Kansas City has 12 of the 35 Level 3 buildings and 15 of 
the 42 Level 4 buildings located in FPS Region 6. I am 
concerned about how the proposal is going to impact the 
security of these Federal buildings and I am very concerned 
about how the reduction in personnel will impact the FPS 
personnel working in Kansas City. Those are things that concern 
me a great deal.
    This is an extraordinary situation and it requires 
extraordinary measures, not just a prohibition on what FPS can 
do. What we need is creative solutions to this problem, not 
something that is going to further complicate FPS's operations. 
I hope our witnesses today can help clear some of this up and 
we can explore some of these creative solutions and, again, I 
thank the witnesses for being here and Chairman Oberstar for 
having this hearing.
    Ms. Norton. Thank you very much, Mr. Graves.
    It is our custom to go to members to see if they have 
statements. I am reluctant to do that in light of the hearing 
that is coming right after us, the press conference we have 
with the Chairman, and particularly the fact that our Deputy 
Secretary, Mr. Jackson, is on the second panel, not the first 
panel, but I know this is a Committee that always engages 
statements. Are there any statements? Because if there were 
only a few----
    [No response.]
    Ms. Norton. Thank you very much. We can then go straight to 
our first witness. I am very pleased to invite Congressman Wu, 
who is not here to offer a piece of legislation, but here as a 
witness who has had occasion to call upon the FPS, and we very 
much welcome David Wu as our first witness.

   TESTIMONY OF THE HONORABLE DAVID WU, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Wu. Madam Chair, honored members of the Committee, I am 
David Wu, 1st Congressional District of Oregon. I am here today 
to thank the Federal Protective Service, to express my 
appreciation for their long-time service, and to relay the 
particulars of one incident that occurred earlier this year.
    On most days, my staff, like yours, perform their duties 
without dramatic incident. We all aspire to have service-
oriented offices and constituents are very much welcomed in our 
offices. However, on this past February 8th, 2007, a 
constituent armed with a large knife entered our district 
office, making threats to others and to himself. Fortunately, 
no constituents or staff were hurt. Most of my staff were out 
of the office attending meetings on my behalf.
    The three staff members who were present at the time, given 
the layout of the office, two out of the three were able to 
lock themselves in another portion of the office within just a 
few seconds and the third was able to slip out a back door and 
get into a neighboring tenant's office. All three of the staff 
members almost instinctively dialed the dispatch center for the 
Federal Protective Service. Each quickly gave their location 
and the circumstances for the call. Within moments, FPS 
officers apprehended the knife-wielding man without significant 
incident.
    My district office is located in a former Federal 
courthouse in Downtown Portland, Oregon. The tenants are a mix 
of public and private entities, and we rely on the Federal 
Protective Service to provide security. The building houses a 
post office on the main floor and there are no particular 
security measures required to either enter the building itself, 
nor to access the elevators for the floor where my district 
office is located. The FPS is located within the building 
itself.
    My staff contacted the FPS immediately because they know 
that the FPS is onsite and the FPS has always been there for 
us. One thing that I know for certain is that without the FPS, 
my staff would have waited longer for help, being in the same 
suite of offices with a threatening person with a large knife. 
Two staff members dialed 911 and got a voice mail and were 
placed in a call queue. Eventually, 911 connected with them and 
they were told that FPS officers were already on their way. In 
fact, one of the response from 911 was that the FPS was already 
in the office and had the man under control.
    After this particular event, I discussed with my staff the 
possibility of moving to another Federal building with higher 
security and with metal detectors, but our staff concluded 
that, because such incidents are relatively rare and because 
FPS responded so well and so quickly, that the move was not 
necessary.
    Here on Capitol Hill we have the benefit of the Capitol 
Police. In our district offices, where we truly have folks on 
the front line, they also deserve a level of security to carry 
out their jobs as best they can, and it is my hope that our 
staff in the district office can continue to count on the 
professional help of the Federal Protective Service going 
forward into the future.
    I thank you for the opportunity to share my views, to relay 
this particular incident, and to thank the Federal Protective 
Service for its service over many years during my time in the 
United States Congress. Thank you.
    Ms. Norton. Thank you very much, Congressman Wu, for this 
firsthand account of an incident. You said you were in a 
Federal building that was still a courthouse or used to be a 
courthouse?
    Mr. Wu. This is a former courthouse. It remains a Federal 
building and it has a post office on the ground floor and a mix 
of tenants, some of which are governmental and some of which 
are private sector tenants.
    Ms. Norton. You said the Federal Protective Service is 
located there. Is that because they had an office there for the 
area or because they were there because Federal employees such 
as yourself were there?
    Mr. Wu. They have an office there.
    Ms. Norton. That covers the entire area of Federal 
employees?
    Mr. Wu. My understanding is that they also have some other 
offices in the Downtown Portland area.
    Ms. Norton. Now, I am concerned that your staff called 911, 
because that is calling local police force, normally. Are there 
generally instructions to call an FPS officer who might be 
close at hand, particularly since FPS was located in the 
building, or was that just the instinct to call 911 because 
everybody calls 911?
    Mr. Wu. Well, their first instinct was to call the FPS, and 
they made those calls and there were three staff members in the 
office at the time. There was a fourth in the building and 
between the four of them several calls were made, the first 
calls were to FPS, and there were follow-up calls or calls made 
by the fourth staffer to 911.
    Ms. Norton. Does this FPS have a number like 911 or do you 
have to dial a number that is like an ordinary number in order 
to call FPS?
    Mr. Wu. Madam Chair, I actually do not have the answer to 
that right now.
    Ms. Norton. I will ask that of the officers. I would think 
that that is the kind of change we would want to have FPS make 
if we could. I would be concerned because it seems to me that 
local police are almost always inclined to give--and I 
recognize that most of the staff called the FPS and they knew 
what to do. All credit to you and your staff that they already 
knew what to do. But I would be concerned about calling 911 
because many areas would simply assume that is for the Feds and 
I have got to keep dealing with crime here in my own 
jurisdiction. So that will be a question I reserve for the 
Federal police.
    I understand there was a demonstration of sorts going on at 
the time in front of the Federal building in which your office 
is located. Do you recall that?
    Mr. Wu. I do not recall that there was a demonstration in 
front of the office at that time.
    Ms. Norton. Now, was there any need, after this incident, 
to upgrade security in your office in your view and was it 
done?
    Mr. Wu. We considered either moving to a higher security 
office and----
    Ms. Norton. Say a word about higher security office. The 
office in which you were located had what kind of security? You 
said you could get through the elevator and so forth. Was there 
no security at the door?
    Mr. Wu. There is no security at the door. There are no 
metal detectors or other screening mechanisms. It is my 
understanding that there are regulations about how many Federal 
employees are at a particular site before there is security at 
the door or there are metal detectors. We have explored those 
possibilities and we have also explored the possibility of 
moving to another facility with more Federal employees, which 
comes with more security. But after assessing all the options 
and the fact that FPS is able to respond so quickly and the 
fact that this is an office which has served us well, the staff 
decision was to stay put with the FPS protection and where they 
are right now.
    Ms. Norton. Well, that is understandable. I see nothing 
wrong with some Federal employees being in buildings where, 
shall we call them, civilian agencies are located, and the risk 
is based on whether or not there is a risk. And if there were a 
risk, then you wouldn't be located there. People would think 
that the office of a member of Congress would not present such 
a risk, so I can understand and I think I would have made the 
same decision. My office is located in the National Press 
Office at 14th Street and Pennsylvania Avenue. I can assure you 
that there are not many Federal offices there. But it certainly 
wouldn't make financial or economic sense for people like us to 
insist that we are in the most secure buildings for the most 
part.
    But the point, it seems to me, of the incident involving 
you, Congressman Wu, is that there were Federal police on hand. 
How would you assess the response of the Federal police to the 
incident?
    Mr. Wu. Madam Chair, that is precisely the point, that the 
FPS were immediately at hand and were able to respond in a very 
quick manner. From the way the incident played out, they 
responded, I believe, much more quickly than local law 
enforcement could have because they have a focal point, or few 
focal points, for what they need to protect, which are the 
Federal buildings and the Federal facilities around. Not all 
district offices have the benefit of such close proximity, but 
in our particular instance, the access to and the proximity of 
the Federal Protective Service has been of great help, 
security, and reassurance for our staff.
    Ms. Norton. Thank you very much, Congressman Wu.
    I will now move to Mr. Graves to see if you have any 
questions. Are there members on your side? Congressman Graves, 
do you have any questions at this time for Congressman Wu?
    [No response.]
    Ms. Norton. Are there any questions on our side for 
Congressman Wu?
    [No response.]
    Ms. Norton. Let me thank you, Congressman Wu, for taking 
your time this morning to inform us firsthand of an experience 
that I think helps us to understand the role of FPS.
    Mr. Wu. Thank you very much.
    Ms. Norton. I would like now to call four members of the 
Federal Protective Service. They are Inspector Michael--I am 
sorry, I do not have their locations here, the locations from 
which they come. I will ask them when they give their testimony 
to tell us their location.
    Would the four witnesses from Federal Protective Service--
Inspector Michael Brown, Corporal Stanley Nowak, Inspector 
Sterling Proctor, Jr., and Officer Jim Ward, all of the Federal 
Protective Service--come forward now and would you stand so 
that I may swear you in, as we swear in all witnesses? I would 
ask each of you to raise your right hand.
    Do you solemnly swear the testimony you will give before 
the Committee on Transportation and Infrastructure will be the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Mr. Brown. I do.
    Mr. Nowak. I do.
    Mr. Proctor. I do.
    Mr. Ward. I do.
    Ms. Norton. Thank you. Be seated.
    Gentlemen, you may offer testimony if you desire. You need 
not offer testimony.
    I need to say for the record that I felt compelled to write 
to the Secretary of the Department of Homeland Security after I 
was made aware of a letter that was sent to these officers 
after they were subpoenaed by the Committee. The letter was a 
kind letter; it was not, in its language, intimidating, but it 
was an inappropriate letter. It asked that the officers submit 
their testimony to the Department before offering it to the 
Committee. Understand, these are line officers appearing in 
their personal capacity, and it is in that capacity that they 
were subpoenaed. This is police work and the Committee is 
interested in the day-to-day effect on police work. You can't 
find that out by talking to somebody in Washington or somebody 
in charge of the FPS; you have got to talk to witnesses like 
Congressman Wu or like the witnesses before us now.
    The letter, which I will make a part of the record, signed 
by Dean S. Hunter, Acting Director, U.S. Immigration and 
Customs Enforcement, said that they simply wanted to assure 
that nothing would be said of a sensitive nature that would 
undermine the FPS mission or endanger members of the public. 
Now, we are talking about police officers appearing before us, 
now. And also that any information that the officers would 
offer would not be, and I am quoting, ``privileged or otherwise 
restricted from disclosure by law,'' and, thus, they wanted the 
opportunity to discuss their testimony.
    Now, I am on another committee that has jurisdiction over 
Federal employees. I can think of nothing more intimidating on 
its face, however worded, than to receive a letter from someone 
called the acting assistant director requesting an opportunity 
to discuss your testimony. I might decide, if I were a Federal 
employee, maybe this isn't such a good idea after all.
    I indicated to staff that I wanted the officers to know 
that I was concerned, and I said to them that this Committee 
would do nothing to put these officers at risk because we had 
subpoenaed them. They are not being subpoenaed because of 
wrongdoing; they are being subpoenaed to offer information that 
we thought only they had.
    I then wrote a letter, which has not yet been answered, to 
Secretary Chertoff, indicating to them how concerned and even 
shocked I was that Federal employees, who were not a part of 
the Administration but were line employees, were being asked to 
submit their own testimony or to discuss it before coming to 
appear before a committee and indicating that, in my view, this 
kind of communication has a chilling effect and therefore could 
prevent the Committee from receiving the candor and necessary 
information we must have.
    We, of course, are interested in the day-to-day routine, 
particularly today, in FPS officers because, as I indicated in 
my opening statement, we have had no hearing, not one, 
involving the FPS since they were absorbed several years ago 
into DHS, so we are a blank slate. Even though I have been on 
this Committee 17 years, we are a blank slate when it comes to 
knowing what the effect has been of this vital service on their 
core mission, now enlarged, to protect Federal employees.
    I offered in the letter, since, however inconceivable it is 
that officers with this experience would offer testimony that 
would in fact be of a sensitive nature or somehow disclose 
matters that were not intended to the public or could harm the 
public or the Federal Protective Service, I indicated that, in 
any case, we would welcome the presence in the audience of a 
lawyer from the Department of Homeland Security who might have, 
if he heard anything of this sort, quickly alert us. But you 
have to understand that they must have been talking to us, 
because we are asking questions, so the assumption has to be, 
therefore, not only that we would disclose, but that we, 
members of Congress, would ask questions or would allow 
testimony that would endanger members of the public, or that 
would be sensitive information that could undermine the FPS, or 
that was either privileged or restricted from disclosure by 
law. So it seemed to me to be a reflection on Congress, perhaps 
as much as on the officers involved.
    I want to put this in the record because the first thing 
that occurred to me, because I have been a member of an 
administration and understand fully, and believe fully, that if 
you are testifying on behalf of an administration, that your 
testimony should go to the OMB and be cleared. I am fully 
familiar with OMB Circular A-19 and I am equally certain that 
that Circular from the Office of Management and Budget does not 
apply to civil servants in the ordinary course of business.
    So I had to say, therefore, in my letter to Secretary 
Chertoff, that this Committee will use all of its capability to 
ensure that there is no retaliatory action taken against these 
subpoenaed FPS officers.
    Ms. Norton. So the first thing I am going to say to the 
officers is you do not have to offer testimony. You may offer 
testimony if you would like or you may simply open yourself to 
questions, as you see fit. What is your pleasure? Please do not 
feel that it is necessary to speak up before we ask questions. 
Would you prefer me to begin with questions? I would prefer it 
that way, but if you would prefer otherwise, then I would defer 
to you.
    Mr. Nowak. Madam Chairwoman, I would prefer whatever you 
request. We will go ahead and go with that.

   TESTIMONY OF INSPECTOR GENERAL MICHAEL J. BROWN, FEDERAL 
  PROTECTIVE SERVICE, SEATTLE, WASHINGTON; INSPECTOR STERLING 
  PROCTOR, JR., FEDERAL PROTECTIVE SERVICE, NATIONAL CAPITAL 
  REGION; CORPORAL STANLEY NOWAK, FEDERAL PROTECTIVE SERVICE, 
KANSAS CITY, MISSOURI; AND OFFICER JIM WARD, FEDERAL PROTECTIVE 
                SERVICE, NEW YORK CITY, NEW YORK

    Ms. Norton. In your case, officers, we subpoenaed you for 
information. I can't believe that any of you have had to 
prepare testimony, particularly not knowing much about what we 
were interested in at some of the levels I discussed in my 
opening testimony. So if you do not feel offended, I would as 
soon begin with questions and ask, in these first questions, 
any of you to answer.
    Give me some examples of crimes, criminal acts, or events 
that you, as peace officers, typically investigate or are 
called to respond to.
    Mr. Brown. Madam, Inspector Brown from Seattle, Washington. 
In our area, the most common call is someone attempting to 
bring a weapon into a Federal facility, be it a Social Security 
office where the guard checks bags on a random basis or someone 
who is detected trying to bring it through the magnetometer on 
the way to the Veterans Administration in the major Federal 
building. Followed by that would be disturbances at Federal 
offices, again, Social Security offices typically the largest 
generation of those complaints; followed by suspicious 
circumstances and activities. We have security guards at many 
of our facilities, and when they see something that is unusual, 
we try to get them to call us so that, as police officers, we 
can come and resolve the situation and determine whether it is 
suspicious activity, whether it is illegal, or whether it is 
just a citizen taking an art class, making sketches of a 
Federal building.
    Ms. Norton. Do the other officers have any experience they 
would like to offer in answer to that question?
    Mr. Ward. We have the same in New York City. Another 
initiative we have in New York City is that we have initiated 
an operation we dubbed Operation Stinking Badges. Persons who 
enter the Federal buildings in Lower Manhattan go through a 
screening process by the security guards, and during that 
screening process we frequently detect, identify, arrest, and 
prosecute persons who are in possession and using fraudulent 
law enforcement credentials, badges, parking placards, law 
enforcement style uniforms and equipment. They use these items 
sometimes to unlawfully gain entry to the building posing as 
law enforcement officers or just carry these on their person 
and use it for other means. There is an investigation going on 
at this time for Operation Stinking Badges that continues and 
has been very successful in working with the NYPD, their Police 
Impersonation Unit and with our Threat Management Branch, in 
stopping these persons from unlawfully our Federal facilities.
    Ms. Norton. All of us, of course, when you speak 
particularly of weapons, are still, frankly, in shock about 
what has just happened in Virginia, just across the line. None 
of us take lightly the notion that people come in, even though 
obviously most of them may have forgotten. Who could assume 
that after what we have just experienced? False IDs, that is 
bothersome. That is very bothersome.
    Would you make us understand? I think the general public 
doesn't understand the difference, often, between a ``peace 
officer'' and a contract officer in Federal buildings, because 
we have a mix of officers, and should have a mix of officers in 
Federal buildings. Gentlemen, are you not the full equivalent 
of a police officer, for example, for Federal facilities of the 
kind we would have in the District of Columbia, for example?
    Mr. Proctor. Yes.
    Mr. Brown. Yes.
    Mr. Nowak. Yes.
    Mr. Ward. Yes.
    Ms. Norton. Now, what is the difference between you as a 
peace officer and other officers that also have duties, 
protective duties, in Federal buildings?
    Mr. Brown. Madam, as inspectors, the first is our training. 
We attend the same police training course at the Federal Law 
Enforcement Training Center as do the members of the Secret 
Service Uniformed Division and the members of the Capitol 
Police. When we get back to our station, we have a field 
training officer program that lasts approximately eight more 
weeks, where we learn the trade craft of working with the 
people in our particular area, learn where our facilities are, 
and all the things we have to do. And we have the full 
authority to enforce Federal law, including misdemeanor 
building rule violations or conduct felony investigations and 
refer them to the U.S. attorney for prosecution.
    Contract security officers, on the other hand, have the 
same power as any citizen on the street in most States.
    Ms. Norton. Now, what does that mean? Does that mean the 
same ability that I have on the streets?
    Mr. Brown. Yes, to make a citizen's arrest. That is the 
only authority they would have. They can detain people at our 
request, and frequently do, but that is for a limited duration.
    Ms. Norton. Do they have guns to do that?
    Mr. Brown. They have guns and handcuffs and radios--
depending on the terms of the contract and the facility, and 
their training is about one week given by the contractor and 
about 16 hours given by the Federal Protective Service, and 
then marksmanship training of another week.
    Ms. Norton. So what I have been calling the other fashioned 
word ``peace officers,'' they are not.
    Mr. Brown. No, madam.
    Ms. Norton. Because while they have guns, they lack most of 
the authority of a Federal Protective Service officer.
    Mr. Proctor. Yes.
    Ms. Norton. They are not the functional equivalent of a 
police officer in a local jurisdiction.
    Mr. Proctor. No.
    Ms. Norton. And they have one week's worth of training, 
perhaps.
    Mr. Ward. They primarily observe and report.
    Ms. Norton. Say that again?
    Mr. Ward. They primarily observe and report, and then an 
FPO would be the enforcement.
    Mr. Proctor. Right. They do no investigations of that sort, 
merely just access control.
    Ms. Norton. I want to ask one more question before I go to 
Mr. Graves, because I am just simply trying to set up what we 
have here.
    We are told that there will be 50 cities--we don't know 
what they are--that will no longer have any peace offices, that 
is to say, men and women like you, people who not only carry 
guns, but who have total police authority. In such a city, with 
nobody with full police authority, how do you contemplate that 
those officers will respond to crimes in local cities, in local 
jurisdictions? What would be the difference between the way 
whoever is left there operates now and the way you operate? I 
would like you to evaluate what the security and crime 
protection situation would look like in a city where there were 
Federal buildings where the Federal Protective Service once had 
jurisdiction but now find that there are no FPS officers.
    Mr. Brown. One of the beats I had when I first started with 
the Federal Protective Service included a large area of four 
counties in Western Washington. We have a Federal building in 
Port Angeles, which is up on the tip of Puget Sound, about an 
hour and a half from Seattle, where I was based. And when 
incidents happened there, the contract security guard called 
our megacenter, who referred it to the Port Angeles Police, who 
responded. But we had a good working relationship with them and 
we helped them out when we could, and they were happy to 
respond for those calls. But calls of suspicious activity 
around the building, where it didn't involve a criminal threat 
or an indication of a criminal threat, he called us, and 
sometimes it was that day, sometimes it was the next week 
before one of us was able to get out there. That, with a 
reduced presence, is going to happen in more cities.
    Ms. Norton. Why did it take you that long to get out there?
    Mr. Brown. It depended on what else we had going on, how 
many cases we had, how many people we had available and, again, 
the significance of the call. If it was recurring activity, 
where we had identification on the individual, we would go out 
there that night and stay until we finished it. If it was 
merely an indication of someone parked across the street or 
something like that, we would typically talk to the local 
detectives and then we would come out and follow up with them 
later.
    Ms. Norton. So if you are not there at all, what happens in 
a situation like that? For any of you, actually. What happens 
now if even if you, who apparently didn't have the manpower to 
come out for every call? If you are not there, there must be 
somebody there, and we will find out exactly who. Who do you 
think will be there?
    Mr. Ward. Local law enforcement.
    Mr. Nowak. In Kansas City, for instance--I don't know how 
the other cities are, but during the summertime the Kansas 
City, Missouri Police Department goes into what they call 
blackout. That is where all officers are already out on calls--
these are local officers--and if they have a call to a Federal 
facility, it will just have to be stacked up and wait for when 
an officer becomes free. That could be three, four hours, or 
the next day. And a lot of times, when I have been dispatched 
to distant facilities within our region, we always beat the 
local police in, even if they were 20 miles away. If our travel 
time was 20 miles, we generally always beat the local police 
into that facility, IRS office or Social Security office. We 
generally beat them in.
    Mr. Ward. I have a specific example from last week. Being 
from New York City, the largest police department in the 
Country, we responded to a call that came in through our 
megacenter of a disturbance in the Federal building at 26 
Federal Plaza. Myself and my fellow officers responded to this 
call. It was a disturbance. It was actually two disturbances 
going on simultaneously. We were able to resolve both 
instances. It was an altercation between CIS clerk and a person 
seeking some services from that agency.
    Forty-five minutes later I was back out on my patrol, 
having left that call 45 minutes earlier, and I was approached 
by an NYPD sergeant, and he said I received a call at this 
location inside 26 Federal Plaza of a disturbance, can you 
please go in the building and respond there and telephone me 
back at the desk at the local precinct house and let me know 
what the disposition is? So, once again, we responded. It was 
the same identical location. Spoke to the complainants at that 
location; they said, yes, they had placed a call simultaneously 
to the megacenter and to 911. So what happened was, when the 
call came to FPS, we responded immediately. When the call went 
to 911, NYPD, they responded up to an hour later.
    So here is the largest police department in America, and 
they can't even get to the calls in a prompt, timely manner. 
That is one specific incident. It happens routinely at 26 
Federal Plaza in the Lower Manhattan area. FPS gets there a 
long time before the locals get there. And the locals are just 
tied up, it is nothing with them. There are a lot of things 
that go on in the Lower Manhattan area that keeps the local 
NYPD pretty tied up with what they are doing, and they already 
know that we are there in these Federal buildings providing 
police services.
    Ms. Norton. Well, in fairness, we don't know that New York 
would be one of the areas. In fact, we don't know what they 
would be. We do know this, that if a call comes from a 
neighborhood and it comes from a Federal building, it better 
stack up the Federal call, as opposed to not responding to the 
taxpayers in their own local community.
    Mr. Proctor, finally, you are in the National Capital 
Region. That, of course, is not just the District of Columbia. 
They probably will have police here. In fact, we have more 
police here because there are other kinds of Federal police 
here. But I tell you that half the Federal presence is located 
in the suburbs, in what might be called the counties or smaller 
communities. So, Mr. Proctor, would you answer that question 
for your jurisdiction?
    Mr. Proctor. Yes. I am located here in the National Capital 
Region, but I cover Prince George's County, mainly the Suitland 
Federal Center, which is an exclusive jurisdiction. We get 
various calls, suspicious activity----
    Ms. Norton. Now, that is in Prince George's County. What is 
the town?
    Mr. Proctor. Suitland.
    Ms. Norton. The town is Suitland.
    Mr. Proctor. Suitland, Maryland.
    Ms. Norton. And the police are Suitland police or Prince 
George's police?
    Mr. Proctor. Well, on Suitland Federal Center it is 
exclusive jurisdiction, so the only police is FPS.
    Ms. Norton. If in fact there were local law enforcement to 
rely upon----
    Mr. Proctor. It would be Prince George's County. Prime 
example, we got a call maybe about a month ago for suspicious 
activity--like Inspector Brown was saying, we get that quite a 
bit too--where individuals are walking around the Suitland area 
because the Suitland Federal Center is going through a new 
makeover; we have a new census building out there. And this 
particular individual was stopped by Prince George's County 
Police and they called FPS and we had to come over there and 
investigate the incident, and the guy was taking pictures of 
the Federal building, which is not really a crime, but it just 
raised our suspicion on to why an individual would like to take 
pictures of the Federal building. So what we try to do is make 
sure they are not taking pictures of any entry points or exit 
points of the Federal facility, and what we do is we look 
through the camera to make sure they don't have any pictures of 
your entry points, where the guards are located, so that in 
case, if they are some type of terrorist activity, we can try 
to prevent it by confiscating the camera, if need be.
    Ms. Norton. Thank you, Mr. Proctor.
    Before I go to Mr. Graves, I do want to say I am a member 
of the Homeland Security Committee. What this officer said 
about suspicious activity is exactly what we are about. We 
don't want the bomb to go off. We want to err on the side of 
seeing whether this citizen--and, remember, you have every 
right to have a camera--seeing whether this citizen is a 
suspicious person or not.
    Now, I can tell you one thing. It reminds me reading the 
paper. Prince George's has had a spurt in crime, and a terrible 
spurt in crime, and I can say, I think without fear of 
contradiction--Mr. Wynn is not on this Committee--that there is 
a very fat chance in you know where that any priority could 
possibly be given to the Suitland facility, a very important 
Federal facility.
    Mr. Graves.
    Mr. Graves. Thank you, Madam Chairman.
    I am going to be a little parochial, if that is all right, 
and specifically talk about Kansas City, because that is 
obviously where I represent and very important to me, and I can 
kind of translate that into what is going to happen around the 
Country. So my question is to Mr. Nowak.
    Are we staffed adequately now, in the Kansas City area, to 
cover all the things that you have to cover? And what is going 
to happen, under this new proposal, to us in Kansas City if you 
get cut 15 slots, which I think is the proposal right now, 
which will take you down to 43 individuals?
    Mr. Nowak. Sir, we are not adequately staffed. We haven't 
been for years. And if they remove the police officers, all you 
will have is the contract guards, and guards, on the most part, 
are pretty good, but there are problems with them: the 
employees don't respect them; people coming in off the street 
for service and visitors don't respect them, they know they are 
just guards; and if they are asked to do something, the only 
time the employees will listen to the guards is if they know we 
back them up, and without us there, there is no backup for 
them. And local police will not come into a Federal building to 
enact any or protect the employees there unless they are called 
in, but if we are there they won't come over unless we are 
there. If we are moved after whatever date, they still are kind 
of hesitant to come into the Federal facility because of prior 
problems they had on Federal property years ago.
    Mr. Graves. Are you concerned for the safety of the folks 
working in those buildings?
    Mr. Nowak. Very much so.
    Mr. Graves. And that will obviously just increase if this 
is implemented, that concern?
    Mr. Nowak. Yes, very much so.
    Mr. Graves. Thank you, Madam Chair.
    Ms. Norton. Thank you, Mr. Graves.
    Mr. Bishop?
    Mr. Bishop. Thank you, Madam Chair, and thank you for 
holding this hearing.
    I represent New York 1, which is the eastern half of Long 
Island, so first to Officer Ward. I understand that the 
proposed reduction in Federal Protective Service people for 
Federal Region 2, which includes New York, is 45 percent; for 
New England it is 50 percent; for Region 4--Alabama, Florida, 
Georgia, Kentucky--it is only 15 percent. As a professional law 
enforcement officer, can you tell me by what logic does a 
reasonable, well-intentioned person think that it is okay to 
cut law enforcement presence in a region like New York, which 
includes New York City, obviously, by 45 percent?
    Mr. Ward. I don't understand the logic myself, so I am 
unable to explain it. But if you do that, then you are going to 
place these Federal buildings at serious risk and there is 
going to be some serious situation that is going to occur in 
the future because, as we all know, terrorists will attack 
again; there will be another attack. And if you peel away that 
layer of security that you currently have in place, and if you 
don't increase that layer of security and add additional police 
officers, the risk is just going to be even greater.
    Mr. Bishop. Congressman Graves just asked if the security 
presence in Kansas City was appropriate at this time. Would you 
consider the current staffing in New York to be appropriate or 
is it light?
    Mr. Ward. It is light. Another example is Plumb Island. We 
used to have----
    Mr. Bishop. I wanted to come to Plumb Island in a second. 
Let me do that.
    Mr. Ward. Okay.
    Mr. Bishop. Plumb Island is just that, an island, and it 
has a very sensitive Federal facility on it, and my 
understanding is that there are now no Federal Protective 
Service personnel on the island, and that the Memorandum of 
Understanding that the Chairwoman referred to earlier in her 
statement, vests law enforcement authority on a local police 
officer which, best case, is a 45 minute boat ride away. So I 
would ask all of you, as professional law enforcement officers, 
do any of you consider that to be an appropriate arrangement 
for any kind of facility, but particularly one that studies 
very sensitive and very dangerous diseases?
    Mr. Ward. Absolutely not. There should be an FPS presence 
on that island 24/7. We had one police officer there and there 
is a contract security guard for us that does not have law 
enforcement authority, but we do need an FPS presence on Plumb 
Island 24/7 given the sensitive nature and the sensitive 
diseases that are there.
    Mr. Bishop. One last question. It is my understanding, and 
correct me if I am wrong, please, that the MOU with the local 
police force vests authority in that police force to execute 
arrests only if the police force has been deputized. Is that 
your understanding as well?
    Mr. Ward. I am not sure an MOU exists. I haven't seen a 
copy of it, so----
    Mr. Bishop. One does exist. After great difficulty, we have 
obtained a copy. One does exist.
    Mr. Ward. If the island was exclusive jurisdiction, then 
somebody would have to be deputized with Federal law 
enforcement powers in order to execute any arrests on that 
island.
    Mr. Bishop. And if that local law enforcement entity has 
not been deputized and there is no Federal Protective Service 
currently on the island, is it reasonable to assume that there 
is, therefore, no local or even Federal authority that has the 
authority to execute arrests?
    Mr. Ward. That is correct. And not to disparage that police 
department, but that is a very small police department.
    Mr. Bishop. It's a first rate police department, but you 
are right, very small.
    Mr. Ward. And they have their community they have to 
protect, and for them to get the extra burden of having to 
worry about Plumb Island, which should be the responsibility of 
the Federal Government, just places that additional burden on a 
small town police department that shouldn't have to worry about 
that.
    Mr. Bishop. I couldn't agree more. Thank you very much for 
your testimony and thank you for what you do to protect our 
buildings. Thank you.
    Mr. Ward. Thank you, sir.
    Ms. Norton. Thank you very much, Mr. Bishop.
    Who else on this side? Mr. Reichert.
    Mr. Reichert. Thank you, Madam Chair.
    First of all, thank you for your service. Mr. Brown, good 
to see you. I was the sheriff in Seattle before I came to 
Congress; have done 33 years of cop experience with the 
sheriff's office, so I kind of miss the badge and the gun and 
the uniform. You guys look good and you do good work. How were 
you selected to be subpoenaed today? How did the four of you, 
out of 1200 and some employees, get subpoenaed?
    Mr. Ward. I don't really know, sir.
    Mr. Reichert. You just ended up with a subpoena in your 
mailbox?
    Mr. Ward. Yes.
    Mr. Nowak. Kind of volunteered.
    Mr. Reichert. Volunteered. Okay. Do you have any fear of 
retaliation testifying today, about your job?
    Mr. Ward. Do not.
    Mr. Nowak. Well, there is always that thought in the back 
of your mind.
    Mr. Reichert. Mr. Brown?
    Mr. Brown. No problem, sir. I was subpoenaed because a 
Committee staffer called me. I think somebody had provided the 
Committee with some of my work on staff modeling.
    Mr. Reichert. You know, let's just get down to the bottom 
line and talk some cops talk. You have a job to do on that 
Federal property in those Federal buildings, and the 
relationship that you have with the Seattle Police Department 
in Mr. Brown's case, with the King County Sheriff's Office, I 
know personally is exemplary. Do you know anything different, 
Mr. Brown?
    Mr. Brown. No. We work very closely with Seattle and King 
County, as well as the other surrounding police departments 
where there are Federal facilities.
    Mr. Reichert. And the three of you all experience the same 
partnership with the local police departments?
    Mr. Proctor. Yes.
    Mr. Reichert. How many positions in Seattle are we talking 
about losing?
    Mr. Brown. They haven't announced how many they are losing. 
We currently have 5 police officers and four inspectors, so 
with 9 now, if the police officers are going, it would be 5 or 
6.
    Mr. Reichert. What is the contingent of the private 
security that you have talked about? You already have some 
contingent there that you are working with in all four areas, I 
assume.
    Mr. Brown. Yes. In the Seattle area we have got--I am not 
sure of the number of guards because some are part-time and 
some full-time, but we have over 60 guard posts, including 24-
hour guard posts at the major Federal facilities and guard 
posts at Social Security and other service level offices.
    Mr. Reichert. And is it the purpose of those positions to 
free you up to respond to criminal calls and calls for help?
    Mr. Brown. It is for that and so that we can engage in 
proactive patrols. An example, a Federal facility that has U.S. 
Court of Appeals, the Environmental Protection Agency, and a 
child care center is next to Freeway Park in Seattle, and when 
the children come out we go up there and conduct patrols of the 
areas around the outside of the building. Last week, the 
officer that went up there found one individual who was smoking 
marijuana. Not a particularly big problem. He also happened to 
be a level 3 sex offender after we contacted and checked him. 
Two other individuals on the other side there climbed over a 
wall where the sign says you can't climb over, climbed back. 
Unusual. The officer went over there, asked them to come up on 
him, one dropped a baggy; it had eventually eight balloons of 
heroin and some needles in it. So those are the kinds of things 
that we find outside facilities and we can stop from happening, 
be it terrorist or criminal.
    Mr. Reichert. So if we eliminate these commission 
positions, is it your understanding that there will be 
additional security guards hired, then, to fulfill some duties, 
or are you going to maintain the same security personnel and 
reduce your commission ranks?
    Mr. Ward. If they can't afford police officers, how are 
they going to afford the security guards? If the whole purpose 
is to save money by eliminating positions, you are not going to 
be able to go back and have extra money to go out and buy 
security guards. In some cases security guards are more money 
than police officers.
    Mr. Reichert. Yes.
    Mr. Brown. I haven't seen anything that would indicate that 
in the Seattle area----
    Mr. Reichert. So we are just going to have a reduction in 
security, as far as you know.
    Mr. Brown. We are going to take the risk of not doing any 
proactive patrol between responses to calls. Instead of it 
being two or three people working out on proactive patrol, be 
it an inspector or police officer responding, but myself, as an 
inspector, I may be conducting a security review or an 
assessment of a facility or a security meeting with the 
committee that is in charge of security for that facility, and 
I am taking a call from that meeting to respond to an incident, 
as opposed to it being somebody on patrol and me moving as a 
backup officer.
    Mr. Reichert. Well, I again just want to say thank you for 
your service to our communities and keep up the good work. I 
know how important it is to have you where you are and to have 
the numbers of people that you need to do your job correctly. 
The sheriff's office was always understaffed too, and it is 
always a struggle for law enforcement to come up with the right 
numbers to do the job they need to do to protect the public, 
and I admire each and every one of you for what you do. Thank 
you.
    Mr. Brown. Thank you, sir.
    Mr. Reichert. I yield back, Madam Chair.
    Ms. Norton. Mr. Arcuri?
    Mr. Arcuri. Thank you, Madam Chair.
    Gentlemen, thank you for being here and, more importantly, 
for the work that you do. I am also from New York, and until 
very recently I was a DA, so although a local prosecutor, I 
worked very, very closely with many Federal agencies, and I can 
tell you that the benefit that we received as a local agency 
from being able to work with Federal agencies, regardless of 
what it was, whether it was the FBI or one of the other 
agencies, was just dramatically helpful to us.
    My concern is this. I think one of the things that people 
fail to see is that crime is cyclical, and if today we are 
doing our job in terms of cutting back on crime and we don't 
continue that effort, tomorrow crime is just going to be on the 
rise again, that it is a constant vigilant job that we have to 
do. Obviously, my concern is when we cut agencies, Federal 
agencies such as yours, the void is going to have to be filled 
somewhere, and crime is going to rise. And if that void is 
filled, obviously, by local law enforcement, it is going to 
hurt because that is going to be local police officers off the 
street.
    I think, more importantly, however, is the role that you 
play in terms of working with local law enforcement. If you 
could, could you tell me a little bit about some of the 
different interactions that you have had with local law 
enforcement agencies in your time? Have you had a great deal of 
cooperation with local agencies?
    Mr. Nowak. When we approach suspicious people on our 
properties, we contact our megacenter and we have to make a 
direct call to the Kansas City Police Department, and we do a 
lot of warrant arrests, so we just take a ride over practically 
across the street, up the stairs to the jail, and we book them 
over there, either at the city jail, the county jail, or we 
take them to another county. So we do a lot of interaction with 
the local police department on their warrant arrests.
    Mr. Arcuri. Does your agency do any investigatory work on 
the inspectors? Inspector, do you do any investigatory work?
    Mr. Brown. Yes. Typically, crimes against property, simple 
assaults and those kinds of things, and the initial 
investigation on almost anything. But one of our special agents 
would typically follow up and take over the investigation on 
the more serious ones, although sometimes we will do long-term 
ones. I participated on an identity theft case and that was a 
formal prosecution.
    Mr. Arcuri. And did you work with local prosecutors, local 
law enforcement during the prosecution of the case?
    Mr. Brown. Yes. This case, the King County Sheriff's 
Department had a case on the same individual. Two of the 
agencies on the east side of the lake did. She had shown us 
fraudulent ID when we arrested her for possession of marijuana 
at a Social Security Office, which is how we got involved, and 
ultimately, between the King County prosecutor and the U.S. 
attorney's office, our case gave her a five year additive on 
what she pled to.
    Mr. Arcuri. Thank you.
    Yes, Mr. Nowak?
    Mr. Nowak. We have been involved also on two drug 
undercover operations with local police departments involving 
two different government agencies. We planted a young officer 
agent in there for a year or so and were able to bust employees 
within the agency that were selling or dealing in drugs. So we 
worked with the local police departments and other Federal 
agencies to take care of that problem.
    Mr. Arcuri. Officer Ward, do you know if the agency in New 
York works with the NYPD on intelligence_the intelligence group 
that they have in New York City? Are you a part of that?
    Mr. Ward. We work very closely with them. I mentioned 
Operation Stinking Badges earlier. They worked with the local 
prosecutors in probably all five burroughs on that effort. We 
also work with them on what we call the Fugitive Apprehensions 
Statistical Tracking Program, where we apprehend fugitives who 
enter into Federal buildings that are applying for benefits and 
are identified that they have an outstanding warrant in an 
outside jurisdiction. We will deal with those persons as well. 
And frequently, with NYPD, we are provided with training from 
their Counterterrorism Division, different courses that are 
available to us. We also provide training to them and with the 
United States Park Police, conduct training that helps us in 
our counterterrorism effort and protecting Federal facilities 
in New York City.
    Mr. Arcuri. And do all of you share intelligence with local 
law enforcement agencies as you develop it?
    Mr. Ward. We have daily bulletins that they provide to us, 
suspects, murders, stuff like that. We put BOLOs out; we 
contact them.
    Mr. Brown. We participate in the local regional working 
groups. We have had our special agents--and still do in many 
locations throughout the Nation--that are on the FBI's Joint 
Terrorism Task Forces with the local jurisdictions and there is 
a lot of cross-information back and forth at the intelligence 
level and then the common criminal intelligence level, who is 
doing what. We will arrest somebody that has been frequently 
arrested by another agency and we will typically let them know 
that we picked that person up and where we did.
    Mr. Proctor. In the National Capital Region, primarily our 
investigators are the ones that are working in the task forces 
and stuff like that. We rarely use a uniformed officer, such as 
they use out in Kansas City, to do plain clothes work of that 
sort.
    Mr. Arcuri. Inspector Proctor, do they do undercover work? 
Do your people do undercover work ever?
    Mr. Proctor. We have someone. I don't know if we have any 
investigators on it now, but in the past I know on several task 
forces we have deployed investigators.
    Mr. Arcuri. I just want to say thank you again. I think it 
is so important that we not cut money to law enforcement, 
whether it is on the Federal or local level, because the job 
that you do obviously is critical to keeping all of us safe 
and, equally important, trickles down to local law enforcement 
as well. So I thank you very much for what you do. I appreciate 
it.
    Ms. Norton. Thank you, Mr. Arcuri.
    Congresswoman Fallin, I know you are from Oklahoma. Perhaps 
you have some questions?
    Ms. Fallin. Yes, ma'am. Thank you, Mr. Chairman. In fact, 
tomorrow will be our twelfth anniversary date of the Oklahoma 
City Murrah Building that was bombed, and I had been in office 
101 days, Mr. Chairman, when that occurred, and I still 
remember that day very vividly because the governor and I were 
brand new on the job, just a couple of months, and security 
whisked us away to a bomb shelter and our command control 
center with all of our State agencies, and we stayed there from 
9 in the morning, when it happened, until 3 in the afternoon, 
approximately, until we could figure out who was attacking our 
Federal building in Oklahoma City.
    I must say that we learned many great lessons about 
security and about the need for law enforcement to work 
together and to communicate together and to have good emergency 
procedures in place to be prepared for any type of catastrophe 
that would happen like that, and sometimes you learn those 
lessons when they happen. So I think the Nation has made a 
great effort to secure our Federal buildings and make sure that 
we are just secured as a Nation.
    I am listening to this discussion and this is new to me. I 
am one of the new members, guys, so I am listening with 
interest. Of course, when Timothy McVeigh came up to our 
building, Mr. Chairman, he drove up in a U-Haul truck and just 
parked, never even came inside the building. I have seen the 
videotape when he drove up and some of the footage around that 
and, of course, some of the police reports, so he never even 
made it into the building for an officer to be able to see at 
that time.
    I had a couple of questions for you. Let me just say, first 
of all, thank you for what you do. I know it is a hard job, and 
we appreciate what you do to take care of our buildings and to 
make sure that they are secure, and our other structures.
    I was reading in this report about the FPS proposal to 
realign the law enforcement personnel from police officers to 
inspectors, and I know we have got a combination of both 
sitting here, and the differences and roles between a police 
officer and an inspector. So I don't want to put anybody on the 
spot, per se, but in your professional opinion, is it 
satisfactory to mix the roles, to realign the law enforcement 
roles between the police officers and the inspectors? Will we 
still receive the same qualify of law enforcement?
    Mr. Brown. What we do as inspectors is both the security 
side and the police officer side, so it is an integrated 
effort. We can look at a facility we are assigned to; we can 
see the security weakness or the opportunity that a criminal or 
a terrorist has to attack that, and as police officers we can 
actually resolve that in how we respond to crimes, and then it 
feeds back into the security development process. In most 
larger cities we have enough facilities and enough work for a 
policeman as well, whose job is primarily to patrol and 
respond, certainly for after-hours. I would think that with the 
proposed administration budget of 950 people, we would be hard 
pressed to have 24 hour coverage in a single city when that is 
implemented. I think we are down to 7 or 8 now. At one time it 
was as high as 15. Staffing studies have recommended between 18 
and 23 cities should have that round-the-clock coverage.
    So that is the difference between what we do. We all 
enforce the law, inspectors do a little bit more, and there is 
very definitely a role for our straight police officers as 
well.
    Ms. Fallin. Yes, sir.
    Mr. Proctor. Well, see, that is where the problem comes in. 
The problem comes in because the inspector, as well as 
patrolling, you have so many other duties: your BSCs, which is 
your building security committee meetings; your awareness 
programs, where you go out to the Federal facilities and you 
hold programs regarding thefts in the building, crime in the 
area, which we call our crime awareness; then some inspectors 
have been tasked as being the COTR, which is the contracting 
officers' technical representative, for a particular contract, 
guard contract. So with the inspector wearing so many hats, as 
well as being assigned to patrol, that is why we need the O83 
police officer, because we can't do it all. So we need the O83 
police officer. We need the ones that are primarily actively 
patrolling.
    Ms. Fallin. So are you saying that you think the 
realignment may not be the best policy?
    Mr. Proctor. No. I truly think downsizing will cause a 
great terrorist risk. I believe that we need to build up. I 
have been a part of FPS since 1996. I was part of the hiring 
right after the Murrah bombing, and we have built our numbers 
up, but now the numbers have declined, and it is just mind-
boggling.
    Ms. Fallin. Can I ask you is there an issue with the 
concept of and the use of contract employees over the policy, 
or the policy, I should say, to reduce the FPS oversight and 
the duties? Do you feel like you work well with contract 
employees?
    Mr. Proctor. Well, the contract employees--not to diminish 
their role--they are our eyes and ears while we are out doing 
our other duties. I am not saying that there is no need for 
them, because I think there is a need for them, but they just 
don't have the training that we get, and to cut us would be 
just terrible.
    Ms. Fallin. And do you have good working relationships with 
local State and Federal agencies? Do you really try to marry 
that together to where you communicate between each other?
    Mr. Proctor. Yes.
    Ms. Fallin. That is one of the lessons we learned in 
Oklahoma City, is that we have to have a good line of 
communication between all the different agencies.
    Mr. Proctor. As far as I know, we have a very good working 
relationship with the locals.
    Ms. Fallin. Good.
    Thank you, Mr. Chairman.
    Ms. Norton. Thank you very much, Congresswoman Fallin.
    The Chairman may well have questions.
    Mr. Oberstar. Thank you very much.
    I particularly appreciate and welcome the testimony, in her 
own words and her own experience, of Congresswoman Fallin, who, 
as lieutenant governor, lived through the experience with the 
Murrah Building, and it is just by coincidence that we are 
having the hearing on the same day. But her experience in this 
tragedy I think can be very instructive for us. She has already 
pointed out several valuable lessons, and we thank you very 
much for your contribution.
    Thank you very much for your willingness to testify. I know 
that under these circumstances you may do so with a little bit 
of trepidation and with some distress, but as I have learned in 
the oversight investigative work over the years, it is our 
responsibility to protect witnesses against any retribution, 
and we do not anticipate that there will be any.
    In 2005, the former director of the Federal Protective 
Service commissioned a workload survey to determine the 
appropriate staffing levels. What was the purpose of that 
activity? Were you engaged in that study? Whoever wishes to 
answer.
    Mr. Brown. I was engaged in that study; I am the only one 
of the panel who was. It was a study with representatives from 
all 11 regions and all the disciplines of the Federal 
Protective Service. It included two deputy region directors, 
several district commanders, several area commanders, the 
first-line of supervision, and three inspectors. We looked at 
what the FPS required to do its job, as our mission was 
delineated then, in terms of how many inspectors and how many 
police officers, and the team recommended a total of about 
2,730, of which----
    Mr. Oberstar. That was system-wide you were looking at. Did 
you do facility-by-facility assessment to determine appropriate 
staffing levels?
    Mr. Brown. We allocated the staffing levels based on the 
four levels of the Department of Justice vulnerability study, 
so obviously considerably more for the Level 4, considerably 
less for the Level 1, about 9 percent of the Level 4 for the 
Level 1; and then we looked at where a facility was located and 
looked at about 70 communities where we established they should 
have some type of daily proactive patrol based on the number of 
employees, the density of the facilities and the security level 
there, and 23 cities that should have 24 hour/7 day patrol.
    Mr. Oberstar. So you did a very thorough review; facility-
by-facility, level of activity, level of security requirement, 
number of Federal employees in the facility.
    Mr. Brown. Yes. We didn't reach down to the individual 
facility. Our goal was to provide the field supervisors enough 
people to handle the average number of facilities in their area 
based on its numerical security level and its location, and 
then they would have the flexibility, based on individual 
threat assessments and threat for their particular area, to 
move those people around.
    Mr. Oberstar. Here we have a professionally undertaken, 
conducted and completed, review of staffing level needed. What 
resulted from the effort? To whom was your report submitted?
    Mr. Brown. Our report was submitted to the deputy director 
of FPS at the time, Mr. Durette, and it was submitted as a 
draft. We started in----
    Mr. Oberstar. And then where did it go from the deputy 
director?
    Mr. Brown. I briefed Mr. Durette on it after he became the 
acting director and, as a result of that, I developed some 
other models with----
    Mr. Oberstar. Did he send it on up to ICE?
    Mr. Brown. I don't know. The other model I developed I did 
brief the Assistant Secretary on.
    Mr. Oberstar. You don't know where it went from there, 
then.
    Mr. Brown. I am not sure where this particular model went, 
no, sir.
    Mr. Oberstar. And, in the end, did the Department of 
Homeland Security, in establishing staffing levels, take into 
account this study and did they make the adjustments that your 
study recommended?
    Mr. Brown. Not as far as I know, sir.
    Mr. Oberstar. Did your study recommend the level of FPS 
personnel as well as any contract personnel?
    Mr. Brown. We didn't establish contract levels; we 
recommended 1700 and some uniformed FPS inspectors and 
officers, and then the special agents, support people and 
supervision that would go with that.
    Mr. Oberstar. At the outset of the hearing today, I quoted 
from the ICE report, which was a very chilling--to me, 
shocking--assessment--an honest assessment, it seems to me--of 
what would happen, and yet the Department has gone ahead with 
stopping levels and with changes and with increases in contract 
personnel without taking into account those cautionary 
statements. What will be the risk, in your judgment, to Federal 
facilities of 50 not having security at all, and others being 
downgraded or FPS substituted with contract persons? What will 
be the result?
    Mr. Ward. It will place those Federal facilities at great 
risk of terrorist attack, crimes, and other things that may 
occur.
    Mr. Oberstar. In Ms. Fallin's comment and accurate 
observation which I made in my opening statement, the McVeigh 
vehicle was parked on the street; he did not enter the 
property. But the lesson we learned from Murrah, the lesson we 
learned from the aviation security is that you push the 
perimeter ever further out, whether that perimeter is 
intelligence gathering from foreign or domestic sources, or 
surveillance cameras further out to detect and deter suspicious 
activity. If you don't nave enough personnel, you can't push 
that perimeter out far enough, is that correct?
    Mr. Brown. That is correct.
    Mr. Proctor. That is correct, sir.
    Mr. Oberstar. What is the turnover level in your FPS 
personnel?
    Mr. Brown. From the summer of 2002 until last year, the 
force was fairly stable. We brought on new people and they 
stayed. Because we had had so many leave before, we were 
authorized a 10 percent retention allowance. As they encouraged 
people to leave, starting last summer, so that they could get 
the numbers down to the budget, they eventually removed that 
and I think the turnover rate is going even higher. Everybody 
sitting at this table took between a----
    Mr. Oberstar. Did you lose retention pay?
    Mr. Brown. Yes, we did, sir.
    Mr. Oberstar. My experience over 44 years of public service 
in the Congress in one capacity or another is that the Federal 
Protective Service has been a very stable guard force; that 
those who sign up for duty and are in the career force enjoy 
their work, are extremely loyal to it, they stay with it. But 
as we learned in aviation security, turnover was immense out at 
Dulles Airport. They had a 400 percent turnover rate with 
Argenbright. They also hired non-English speaking, or at least 
non-English fluent guards, others who had not had background 
security checks, and some who were not even American citizens. 
And I have concerns about turning over protection of our 
Federal facilities to contract authority and falling back into 
the failure of aviation security.
    What training requirements for the private security guards 
compared to yours? I know you have answered this for a previous 
colleague, but I want you to say it again.
    Mr. Brown. The FPS standard requires 40 hours of basic 
training and 40 of firearms training if they are going to be an 
armed guard----
    Mr. Oberstar. Probably half of the security personnel.
    Mr. Brown. It varies from State to State.
    Mr. Oberstar. From State to State?
    Mr. Brown. For a private security guard not contracted by 
the Federal Protective Service.
    Mr. Oberstar. They don't measure up to Federal standards?
    Mr. Brown. There isn't a Federal standard for licensing or 
certification of private security guards.
    Mr. Oberstar. And they are protecting Federal property.
    Mr. Brown. Those that protect Federal property that we hire 
through FPS, or I should say we contract through FPS, have a 
standard.
    Mr. Oberstar. But some agencies have the authority to 
contract on their own.
    Mr. Brown. That is correct, sir.
    Mr. Oberstar. And are their security guards subjected to 
FPS standards or to State standards?
    Mr. Brown. They are subjected generally to State standards, 
not FPS standards.
    Mr. Oberstar. And they are protecting Federal property and 
Federal personnel.
    Mr. Brown. Yes, sir. So they don't undergo the same 
rigorous background check that is part of our risk mitigation 
strategy with our----
    Mr. Oberstar. And we have 15,000 of those in the protective 
service.
    Mr. Brown. The 15,000 meet the standard. The 15,000 meet 
FPS's standard; they receive the background check, they receive 
the training that is called for in our contract. But there are 
places where other agencies will hire or contract for guards, 
or will pay for them through the building owner, and those 
guards we don't supervise and we don't apply those measures to.
    Mr. Oberstar. Is there a situation where there is a Federal 
Government agency also contracts out and you have a mixed force 
within the building?
    Mr. Brown. Twenty-four facilities on a delegation to the 
Passport Agency. The State Department, through the Passport 
Agency, hires their own security guard contractors and they 
don't work for us, and they work inside the same building as we 
maintain----
    Mr. Oberstar. So if an emergency occurs and a knife-
wielding suspect, as Congressman Wu described earlier, gets 
into the facility, they would call FPS?
    Mr. Brown. They would call FPS, and the terms of the 
delegation requires them to assist us.
    Mr. Oberstar. Do they work 40 hours a week, the FPS-
contracted personnel?
    Mr. Brown. Some work more; some work less. That is up to 
the contractor and how he meets his requirements. We do 
generally prohibit the contract guard from working more than 12 
hours in a row.
    Mr. Oberstar. Twelve hours in a row. But in the non-FPS 
hired force, we have information that typically they do not 
work full 40 hours, that their contracts do not include 
comparable benefits that you have in retirement and health, 
etc., in the Federal workforce.
    Mr. Brown. I know that to be the case with two of my 
facilities where----
    Mr. Nowak. That is the same way it is in Kansas City, sir.
    Mr. Proctor. For the most part----
    Mr. Oberstar. I didn't mean for Inspector Brown to be 
answering everything, but all of you can respond to your own 
experience.
    Well, that sets up two standards, creates two standards of 
service to the public. I want to make it clear that the Federal 
Protective Service is there to protect not only the Federal 
employees, but those of the public who come to seek services of 
the Federal Government. They are also being protected. Keep 
that in mind.
    Do you have concerns that this contracting out is going to 
extend even further than it is today? Do you have inside 
information about what further plans are within the Department?
    Mr. Ward. No. And where would the money come from? If they 
are reducing paid Federal employees who are law enforcement 
officers to save money, they are not going to be able to spend 
more money on these contract personnel.
    Mr. Oberstar. The argument that we have heard is, oh, well, 
there isn't enough money to do this, but the OMB, the Office of 
Management and Budget, is the one that sets the level, and 
Federal Protective Service, I know from several years, has 
asked for an increase in the fee they charge the Government 
agencies, and OMB has not approved that fee increase.
    Mr. Brown. We understand that to be correct, sir, and, 
again, that is increasing taxes on other agencies. Their money 
is to provide their services to the public. When we reach out 
and collect money back from them to pay for us, I think that is 
not what we wanted to do with the Department of Homeland 
Security being responsible for everything. The money should 
probably be appropriated to the Department, and we shouldn't 
ask agencies to make decisions on spending their budget to 
support the public or to pay for security for their employees.
    Mr. Oberstar. I appreciate your statement not only because 
it is a very thoughtful statement, but it is something I have 
long believed. We are just taking money out of one Government 
pocket to put it into another Government pocket, asking one 
Federal Government agency to support the activity of another 
Government agency which is supposedly rendering service, and 
now the agencies you serve are being called customers. I think 
that is wacky, frankly. They are not customers, you are in the 
business of public service. This is not the Post Office. They 
have gone to calling postal patrons customers. Well, if they 
want to do that, but the person coming to seek services from a 
Government agency is not a customer; it is a citizen of the 
United States and should be treated as a citizen, not as a 
customer who just blew in off the street. Excuse me.
    Mr. Ward. This was discussed on July 17th, 2002. In fact, 
before FPS moved into Homeland Security, the Senate Environment 
and Public Works Committee sent a letter to the Senate 
Government Affairs Committee and said that FPS should be funded 
directly and the money that is given to these other agencies 
should go directly to FPS through DHS or direct appropriations 
funding.
    Mr. Oberstar. Thank you. Thank you very much.
    Madam Chair, there are many other questions, some of which 
I think we will submit in writing to the panel. There are more 
factual affirmations that I would like to see, but I think we 
need to move on to the next panel.
    Ms. Norton. Are there any more questions for these 
witnesses?
    I only have one more question, and I just want to apologize 
to Deputy Secretary Jackson, who has very kindly sat through 
this testimony. He and I work very closely together. We are 
going to get to him very shortly. There are things that we are 
simply trying to learn, frankly, about these activities and we 
are foregoing any number of these questions in order to try to 
get written answers.
    One thing I just have to understand because I want to be 
clear. There is something about making officers, both officers 
and inspectors is kind of neat. I am not a member who objects 
to efficiencies that do not have a negative impact on the 
underlying mission.
    If I could tell you where I am coming from, as someone who 
headed a Federal agency that was in deep trouble, one of the 
first things I did when I went to the EOC was to decide that we 
were going to settle cases. The great notion that you had to go 
through the Federal courts to do everything made didn't make 
any sense. Lawyers understood that you settle cases, and the 
earlier you settled them the better. Because in my days as a 
student, I came out of the civil rights movement and knew all 
the civil rights leaders, they would say, look, Eleanor is 
going to settle cases right out from under us. Well, I found 
that at the EOC they weren't getting any remedies because the 
cases got so old, and once we went into a very professional 
settlement mode, as opposed t simply haggling, the remedy rate 
went way up.
    So I am real open to greater efficiencies. I am even open 
to the notion that police officers can be inspectors, because I 
know good and well, here in the Capitol, the officers are doing 
security when yesterday, if you will forgive me, friends, they 
were cops. Today they are not only police officers, you know, 
we regard them as our security officers and a lot of what they 
are doing we are learning on the job. A lot of it doesn't 
involve what you do or what the inspectors do, going around 
and, in fact, looking at various places to see what is 
happening, although, as you see them patrol, they clearly are 
doing precisely that.
    I need to know whether my impression is right that the 
inspectors will not be doing the kind of patrols that we 
learned might be necessary outside the building to keep the 
event from coming in or the kind of ordinary police responses 
that on the Homeland Security Committee we would regard as 
preventative of terrorism or preventative of crime. Will these 
inspectors, who obviously will be doing some form of double 
duty, continue to patrol the facility to keep it safe the way 
every staircase in the Capitol, every floor in the Capitol is 
patrolled by a Capitol Police officer?
    Mr. Proctor. No, ma'am.
    Mr. Ward. No.
    Ms. Norton. Will there be any patrol? That is what I want 
to know.
    Mr. Proctor. Very little. Very little patrol, because of 
all the other duties that are required from the physical 
security side.
    Mr. Ward. In New York City we have the police officers, a 
large amount, patrolling around the Federal buildings basically 
in the Lower Manhattan area and the outer burroughs, and as a 
police officer conducting these patrols myself, I rarely, very 
rarely see an inspector on patrol. We have a very limited 
number of inspectors, we are understaffed in inspectors because 
we lost a few recently, and the workload is just every-
increasing in our COTR responsibilities, as mentioned earlier, 
monitoring of the contract guards. All this places an 
additional burden on these inspectors, and they are only 
inspecting maybe 5 percent or less of their time conducting law 
enforcement patrol and response to calls. The burden is even on 
the canine officers who are doing the dual duty of inspector 
role. So here is a canine, an explosive detection dog that 
should be out patrolling the perimeter of our Federal 
facilities, sitting in an office while the canine inspector is 
conducting his administrative duties related to physical 
security of these buildings.
    Mr. Brown. The goal, ma'am, of the inspector program is for 
the inspector to spend at least half of his time doing that. In 
Seattle, we have been fortunate enough to have enough people 
that we can spend half of our time doing law enforcement and 
patrol work and the other half with surveys and taking care of 
the security tasks. It is unusual, but that is because we have 
enough inspectors there. There should be more inspectors; there 
should be more police officers.
    Mr. Nowak. In Kansas City, the inspectors aren't even in 
uniform or police officer; they wear khaki pants and a polo 
shirt.
    Ms. Norton. The inspectors are not peace officers, 
necessarily?
    Mr. Nowak. They do not wear a uniform, they wear khaki 
pants and a polo shirt.
    Ms. Norton. Why not at least let them wear a uniform?
    Mr. Nowak. I don't know. That is their uniform now.
    Mr. Brown. That is not the case in our part of the Country. 
We are police officers and we wear a uniform.
    Mr. Ward. In New York City we only have two explosive 
detection dogs that are assigned to inspectors, and the only 
time I see those dogs around the perimeter is when it is--
excuse the lack of a better term--time to walk the dog, and 
then go back up to the office and get their paperwork done. But 
other than that it is just when the dog needs a break is the 
only time the dog is outside any Federal facilities in New 
York.
    Mr. Proctor. The inspectors here in NCR wear uniforms and 
like Inspector Brown said----
    Ms. Norton. I don't mind it if they are doing undercover 
work, but otherwise the uniform is a deterrent. That is all I 
am thinking about. To have fewer people, the more people they 
see look like cops, the more people respond as if they are not 
supposed to penetrate that.
    Gentlemen, I want to thank you for testimony of the kind we 
need in order to intelligently respond to what the agency is 
trying to do.
    Mr. Chairman, I am going to say something that apparently 
the Federal Government has never done that also came out of 
this hearing that I think we would like to perhaps just 
investigate with the agency, and that is that you can have 
security guards. And I, for one, understand why we have to have 
some people who are security guards and others who are peace 
officers, but apparently there are no standards, and it does 
seem to me, at least with respect to buildings that are either 
Federal buildings or buildings where there are Federal 
personnel, there would be some minimal standards. Now, those 
standards could be set by the local jurisdiction if they were 
high enough, but the notion that there would be no standards 
uniformly across the Federal workforce would put, it seems to 
me, this Committee at risk and has made it look like we didn't 
care about our facilities and X, Y, or Z place who were 
operating with contract guards, perhaps, who were not up to the 
standard of some other place. That is something I want to look 
at separately.
    Above all, I want to thank each of you for coming here to 
Washington--Mr. Proctor, of course, was in the region--for 
offering us very important testimony.
    I ask that the next witness come forward and excuse these 
witnesses.
    Again, as he is coming forward, I want to apologize to Mr. 
Jackson. It is the way of hearings that there is no way to tell 
how long they will take and the Committee was particularly 
interested in hearing the perspective of the officer. Perhaps 
after hearing it, Mr. Jackson will be able to correct some of 
the impressions and help us better understand.
    Could I ask you, sir, if you would stand so that I can 
administer the oath, as we do to all witnesses?
    Do you solemnly swear the testimony you will give before 
the Committee on Transportation and Infrastructure will be the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Mr. Jackson. I do.
    Ms. Norton. Just briefly, Mr. Secretary, you and I have 
worked well together. We are working on very important project 
of this Committee together right now and have done so both in 
the last Congress and in this Congress very well.
    I don't know if you were here when I expressed my concern 
about the fact that these officers had been asked to discuss 
their testimony ahead of time, even though they were not 
appearing in their professional capacity, and even though they 
were appearing under subpoena. The kind letter had no 
intimidating language in it from the agency; nevertheless, if 
you put yourself in the position of the line Federal employee, 
has to have an intimidating or at least chilling effect, and 
reflecting, it seems to me, on the Committee as well, since the 
notion was you wanted to make sure the security and information 
that should not be disclosed, as if members of Congress 
wouldn't want to protect that as much as the agency.
    I don't want to examine you about that; I have written to 
the secretary about that. I am only asking that in the future, 
particularly since the OMB Circular A-19 contemplates people 
who speak for the Administration, that if we are to ever call 
upon civil servants again, that they not receive such a letter. 
Let me assure you, because I am a longstanding member of a 
committee with jurisdiction over civil servants, normally we 
call the union. We didn't think the union could tell us what we 
wanted to know here. We needed to know from somebody who, as it 
were, walked the beat. That is all we are after.
    Thank you very much, sir. I am ready to hear your 
testimony.

     TESTIMONY OF THE HONORABLE MICHAEL P. JACKSON, DEPUTY 
           SECRETARY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Jackson. Madam Chairwoman, thank you for having me 
here. I am grateful to be with Chairman Oberstar and Mr. Graves 
as well. I feel very much at home in this Committee. I have 
been welcomed here many times before and I am glad to be here 
to talk about this important topic.
    I would like to just start. I won't try to take, Madam 
Chairman, the question that you ended with there into any great 
length, but I will tell you that I am extremely grateful and a 
tremendous admirer of the work done by FPS. Honestly, the men 
and women that do these jobs have a tremendously difficult 
challenge in many cases. They are dedicated. You don't do these 
type of jobs for the money; you do it because you have a 
commitment and a passion to public service, and I respect and 
honor and am grateful for that commitment that I see in these 
gentlemen.
    I have to tell you, if there was a chill cast by any 
departmental action, I tried to throw a little heater on it 
this morning because I said to these guys before they came up, 
I said, thank you for being here, thank you for testifying; say 
whatever the heck is on your mind; tell them everything you 
know and whatever you think is the right thing to do; these 
people are here to help us make FPS a success, and I want you 
to be able to say that.
    So I will tell you that from the Department's highest 
levels we are happy to have these people testifying. We are 
happy to do that again in the future with you. I get my 
testimony scrutinized by a bunch of lawyers too before I come 
here, and I think that is just the standard practice of the 
Department, and that is all we are trying to do, is make 
certain that we are disciplined in the way that we appear 
before you and provide truthful evidence for you.
    Ms. Norton. Mr. Secretary, I appreciate that you spoke 
directly to the officers. Your last remarks made me think that 
you were simply working in the ordinary course of business. The 
ordinary course of business would not involve these officers 
submitting their testimony in any way because they are not 
subject to the Circular.
    Go ahead.
    Mr. Jackson. Okay. I would like just to start in the vein 
of saying how important the people are to the success of this 
mission.
    Chairman Oberstar, to just say a quick word about the 
conversation you raised, perhaps I can shed a little light 
hopefully for you on the selection of our new director. Gary 
Shinkler is in the room with us today here.
    Gary, could you raise your hand for the Chairman to see?
    I want to tell you about the selection that we made for 
him. Gary is a veteran of the Marine Corps and has spent--I am 
going to look for it here--29 years in the Marine Corps. He 
also is a veteran of the Chicago Police force, and he came to 
us, Chairman Oberstar, from the TSA, where he was the deputy 
FSD at Chicago Midway Airport, which has a very substantial, as 
you know almost as well as anyone, law enforcement mission in 
those airports. He was not number three on the list. The list 
was, I am told, in alphabetical order. The review was a career 
SES review. He was the number one choice of that review of the 
career SES folks that looked for it and was the recommendation 
made to Julie Meyers, who is here with me today and who is 
responsible for ICE and FPS. I am the chairman of the 
Department's committee that reviews all SES appointments, and 
when I got this one I stopped because it was such an important 
one. I went out and did a little bit of my own nosing around to 
ask about the guy, and everything that I found was 
extraordinarily complimentary of his military, his police, and 
his TSA experience.
    So I just want you to know that this is not an appointment 
that we made lightly, but it is the person who was most 
qualified for the job and is an excellent guy. You are going to 
like working with him, sir, I can guarantee you that.
    I think that the framing remarks for this, first of all, 
Madam Chairwoman, can I just thank you for this testimony? This 
needs light shone on FPS. You are absolutely right in your 
remarks about how important FPS is to the Country, to the 
Federal workforce, to those who visit our Federal buildings, 
and I welcome having this Committee as partners and us thinking 
through what is the future structure, the financial discipline, 
and the funding mechanisms necessary to make the workforce that 
we need to do the job that is at hand.
    I will tell you that Congressman Mica was absolutely spot-
on, and I am grateful for him just pointing out that DHS has 
inherited a very complex stew of management, financial, and 
operational problems, and we are trying to sort these out. I am 
actually very, very impressed at the work that ICE has done to 
try to get us to a better place here. I won't try to go through 
the financial disciplines and controls that have been put in 
place over the last two years, but I will just say that that 
report that GAO made where they suggested that there was a $139 
million deficit in the amount of money that the fees paid for 
is, I believe, spot-on, and we see, even today, in looking at 
costs that were picked up by GSA initially in IT, in HR, in 
legal, and in building fees--GSA didn't use to charge building 
fees for the space that these guys occupy. Now we have to pay 
it. We are a--sorry, Mr. Oberstar--customer of GSA and we are 
paying the bill. So this is about $59 million worth of expenses 
this year, in 2007, that were not part of the cost of doing 
business when this was moved, prior to it being moved into DHS.
    So I want to just say that this financial and operational 
discipline and the work that we are trying to do to make sure 
that we are spending the taxpayers' money wisely is responsive 
to a slew of GAO and IG reports before this group came to DHS 
and after, and we are systematically working through it. I know 
one story from my reviews of this, where we had contracting 
authority spread out all around the Country so people could 
make commitments for a contract workforce and not tell, in a 
disciplined way, what was there. We couldn't even obligate the 
appropriate amount of money if we didn't know a contract had 
been let. In one case, one of Julie Meyers' inspectors went out 
and found a pile of these contracts that had not been sent up 
through the contracting process, and they became known only 
when the bills started piling up and asking for payment. So the 
work that has been done in the last two years is something that 
I want to just say off to the side here is worth your coming to 
understand better and digging into more. It is very substantial 
and I think very good.
    Let me just talk about the task that we face. I am grateful 
for your forbearance. I won't talk long and then we can just 
talk questions.
    The task that we face is to live within a funding structure 
and mechanism that Congress established. It is a fee-based 
business. Then we had this gap between the type of costs that 
were not covered by the fees but which GSA absorbed that was 
the old business model. So now we have that gap that we have to 
deal with. During the course of fiscal year 2003, essentially, 
in the beginning of fiscal year 2004, this gap was not evident 
at DHS because there were some unobligated balances that 
carried into DHS that obscured the actual loss of or the gap 
between the fees collected and the expense of running the 
organization.
    In 2004, some of that gap was itself disguised by Katrina, 
because what happened is we detailed people in calendar year 
2004, we detailed people in effect to the FEMA, FEMA fully 
reimbursed all those costs through the Stafford Act funds, and, 
therefore, in some cases, for a while, more than 200 people 
were not doing FPS police work or investigatory work or 
inspector work, they were doing the Lord's work for us at FEMA 
and being reimbursed for that.
    So last year was when the crisis became absolutely 
unmanageable for us. We took almost $30 million from other 
parts of DHS to be able to make sure we did not go anti-
deficient in FPS. We have made a proposal for what is a very, 
very substantial increase in the fee structure. I would just 
note, for example, that Judge Julia Gibbons, who chairs the 
judicial conference's budget committee, testified in the other 
chamber to the appropriators recently that this increase that 
we have proposed is very, very burdensome on the judiciary and 
was saying that we are asking too much money for our work here. 
So some of our--I am going to call them partners rather than 
customers because I am getting my vocabulary right--are not 
quite pleased at the big increase that we are asking for to 
accommodate our current level of operations.
    So let me just make a final set of points and then stop.
    It is about what we are doing. First of all, Chairman 
Oberstar, the report that you had, I would like to give you 
better figures. It was a preliminary work, it was not the final 
decision of what we are going to use to guide Gary's new work; 
and he is going to finally validate the course of action. I 
will give you just one example. In our current thinking, we 
actually propose to increase the number of FPS officials in 21 
cities, the number of people we have on the ground, and in 19 
cities to reduce it. That is just fundamentally different than 
the early calculations that you saw from a report that had not 
gone through the full process.
    The size of this force has grown from, prior to Oklahoma 
City, of about 2300 total people on the outsource, the private 
contractor, to, after 9/11, now 15,000. So what we have seen is 
a growth that was about 7,000, 6,000 to 7,000 outsourced people 
prior to 9/11. There has been a very, very substantial growth. 
We are trying to bring discipline to how those people are used.
    I just want to answer, Madam Chairman, a question you had 
at the very end. We actually do impose a standard discipline 
for the training. There is a curricula that is established for 
the guards by ICE, by FPS. It involves 72 hours of contractor 
training and 8 hours of FPS training. These are for the FPS 
approved and managed contractors. There are other contractors. 
For example, at my former department, at Transportation, they 
have had a delegation from GSA to be able to do their own 
hiring of this, and it is precisely one of those questions that 
we are trying to address in the transformation plan that FPS 
and Julie are working on to make certain that we have given 
greater clarity and guidance and standards.
    I have been through that with you, sir, on the TSA front. I 
see this problem, our team does; we are working that. But that 
is a considerable amount of training. They have annual firearm 
certification; they have a background suitability examination; 
and, additionally, on an annual basis they have first aid and 
CPR training and periodic refresher courses. So there is an 
established and mandatory set of training and background 
investigation that is required for our management of these 
contracts.
    I will just say that there has been a lot of discussion 
here this morning about the differences between three types of 
law enforcement officers: police officers, investigators, and 
our inspectors. So what I want to say to you is I agree with my 
colleagues back here, some of them who are inspectors, that we 
have not adequately sized and supported the inspector workforce 
that we need. Therefore, ICE's proposal in this re-calibration 
is to increase by a considerable number that workforce of 
inspectors. So what we will do is we will say--I think you 
understand that they have the same police training and police 
skills that a straight police officer has. They are police 
plus. They should wear uniforms, I think. I don't know about 
the khaki deal; I will go look at that. But we expect them to 
show both presences of doing those two roles.
    Our investigators also have substantial law enforcement 
capabilities and 1811 certification so they can do the work 
that they do. Right now we have about 1131 people actually 
working on FPS work on the payroll. We have about 48 that are 
assigned to other tasks on a fully reimbursable basis. This is 
a non-crisis level reimbursable basis job. One of them is to 
help stand up chemical security evaluations and the other one 
is to do some work in OPR, our professional responsibilities 
for managing the workforce across ICE altogether. So what we 
are going to do is grow the inspector workforce and focus on 
standards for building, focus on holding people accountable, 
getting greater discipline around what will actually work and 
how to manage our roles there. We are unable to take the money 
that we have in front of us and make it cover the additional 
proactive police monitoring work outside these buildings, so we 
have taken the assets that we have and we have put them in the 
most coherent form that we think we can give to you with the 
money that we believe is available to do this job.
    So I will just stop there and answer any questions for you 
and be happy to unpack a little bit of this to the best of my 
ability.
    Ms. Norton. Thank you very much, Mr. Jackson. It was 
important testimony I think you did clear up a number of 
matters. What are the cities that will no longer be served by 
Federal Protective Service officers?
    Mr. Jackson. We have not made a final determination about 
this. The number that I mentioned to you is and estimate, and I 
would like honestly not to just publish that in the open 
hearing here today. I can talk to you about that process 
working, but what we are trying to do is let Gary take each of 
his regional directors. We are not laying off anybody in this 
process; we are using natural attrition, and that natural 
attrition is uneven. There may be more in one city that decide 
to retire or to move to ICE. We are taking some of these 
positions and we are very aggressively trying to offer 
individuals who are in the FPS job opportunities in the law 
enforcement responsibilities that ICE has. So we have not made 
some final Solomaic determination of exactly where----
    Ms. Norton. I appreciate that it does not involve layoffs 
from a workforce that apparently already has been thinned 
enormously, but let me ask you this. We understand there are 50 
cities, 50 jurisdictions where you expect that Federal 
Protective Service officers will not be necessary. Is that 
true?
    Mr. Jackson. There are 51 cities right now that have 10 or 
fewer police officers. This would be the----
    Ms. Norton. Ten or fewer of FPS?
    Mr. Jackson. Yes, ma'am, police officers. This would be the 
universe of places where I think the likelihood would be that 
we would end up with no officers if there is a city that ends 
up with no police officer.
    I will tell you I looked at the list this morning, and 
there are a considerable number of mid-sized cities in the 
Country that have one officer, one police officer in that city. 
That is not a 24/7 cover, it is only 8 hours cover, and it is 
not what I would call a substantial enhancement to the law 
enforcement capabilities if we only can marshal one person for 
that city. So what we are doing is we are taking a risk-based 
approach, we are saying cities like New York, Washington, Los 
Angeles, Chicago, places where there is a large Federal 
concentration and a larger risk is where we will move the 
resources that we have.
    Ms. Norton. At some point, of course, it is going to be 
common knowledge where the FPS cities are or are not, so we 
would ask you to submit that for the record as soon as those 
cities have been determined.
    Mr. Secretary, I want you to know I don't have any bias in 
terms of location of personnel. The real question is coverage 
and prevention. Obviously, we also have very different threats 
in different parts of the Country, and I am the first, sitting 
here in the District of Columbia, to understand that. In fact, 
your agency has been criticized not for what you did, but for 
what Congress did in kind of depositing people and resources 
all over the Country without regard to risk and consequences. 
So it is the risk assessment that the Committee will want to 
see when entire jurisdictions are reduced to no FPS officers.
    How, then, are these MOUs to work? If I am sitting in a 
local jurisdiction where you have carefully negotiated an MOU 
saying the local police agree to come, do they know that there 
are not going to be any peace officers there?
    Mr. Jackson. No, ma'am. This is not an easy task and a 
simple turnkey thing where a bunch of people like me are going 
to sit in Washington and say do it this way and, you know, hope 
it works. These will require leveraging the very substantial 
relationships that we have with the local law enforcement 
community to say--let's look at two categories. If we are 
eliminating presence of a police patrol capability in a given 
location and we have an MOU there, what we will have to do is 
revisit that MOU and say can you backstop with local police 
support some of the activity that we were previously----
    Ms. Norton. Why should they do that? This is an unfunded 
mandate. You are saying we don't have any now. We have got to 
ask you to amend this MOU because there are no peace officers 
here. Why should a local jurisdiction agree, once you want to 
change the terms of the MOU?
    Mr. Jackson. Well, there are approximately 780,000 State 
and local law enforcement officers in this Country. We have a 
couple of hundred FPS police officers. So what we think is that 
in those locations where we need to that we can ask the 
cooperation of these----
    Ms. Norton. No, no, my question is why should they. In my 
opening statement, I said that the crime spurt throughout the 
United States now, and we have had $2 billion cut in funding 
for local police like the cops. Why should a local police 
officer agree to this and if so, why should he give reports 
from Federal facilities any priority, given his own 
responsibilities in the local area?
    Mr. Jackson. Because if I am a chief of police, if I can 
borrow what Congressman Oberstar said, these are my citizens. 
These are my people that I am protecting. I am the chief of 
police and this is my city and I am going to try to make 
certain that all the facilities----
    Ms. Norton. This may or may not be the people who you are 
protecting. It is in a Federal facility.
    Mr. Jackson. But they live in those communities, they work 
in those communities, the people visiting there. It is the same 
enforcement. Look, I understand that we are making tough 
choices here. But I can't----
    Ms. Norton. Mr. Secretary, it is not that you are making 
tough choices. You are making choices for the local 
jurisdiction which the Committee cannot guarantee will protect 
the visitors and the employees in that jurisdiction. And very 
frankly, as somebody who knows something about local law 
enforcement, I think a police chief would be crazy to accept 
those terms. It is an unfunded mandate. You don't want the 
expense on the big kahuna's budget, and you want to shift it to 
local jurisdictions and they ought to take it with a smile? How 
do you think they are going to do that? Because we have to 
probe that kind of change and wonder if there is greater risk, 
both terrorism and to criminal incidents.
    I am not one of those who say you have to have Federal 
police presence of the kind the FPS, round the clock Saturday 
and Sunday. Look, I am 24/7 here because I represent the 
District of Columbia. If you come down Independence to our 
entrances, you will see one entrance manned on the weekends. 
That is the South Capitol--sorry, that is the New Jersey, the 
main entrance. Go to D Street, you won't see any of those 
manned. If you come to South Capitol--have I complained? The 
reason I have not complained is because I do believe in risk 
assessments. I don't think about Al Qaeda, and say, wow, nobody 
is in the building, this is a great time to bomb the Capitol. 
Of course, we are at the Capitol, our folks are at the Capitol 
24/7. I think that this was long before DHS was set up, over 
here the Capitol Police, who have the most to lose, decided on 
a risk basis that it was a waste of their personnel to put 
people all along D Street, to put people all along Independence 
Avenue, the way they are most of the time, but to have someone 
at the main entrance.
    I know there will be people on my Committee who disagree 
with me. Well, I disagree with them. We can't take the position 
in the Department of Homeland Security that funds ought to be 
done based on a risk analysis throughout the Country. Hey, but 
when it comes to us, or for that matter, Federal employees, we 
want to be covered with security.
    But what we need to see if your risk analysis. Again, you 
see, I am on both committees, we will be very, very leery of 
invidious comparisons between the kind of security we want for 
people like us and the kind of security we want for two million 
fellow employees, for visitors who walk into a Social Security 
building, or for after-hours. So you need to be on notice that 
we are going to insist upon being briefed on the risk analysis 
when in fact we find whole jurisdictions with no peace officer 
dependent upon the local police chief to give our facility, 
with all we have invested in it, and our employees and our 
visitors all the attention they deserve. Because after all, we 
are all one big, happy family. You ask a police chief who his 
family is when it comes to his regular duties.
    I want to go on to Mr. Graves, then to the Chairman.
    Mr. Graves. I don't have any questions, Madam Chairman.
    Ms. Norton. Mr. Chairman?
    Mr. Oberstar. Well, Madam Chair, I think you described the 
situation here at the Capitol very well. We are not securing 
the perimeter here on weekends very effectively. That is not 
Secretary Jackson's concern, but it is a good lesson for the 
other Government agencies that we are dealing with.
    In your description of, first of all, your entire 
statement, which I read in detail last night and again this 
morning, will appear in full in the record, of course, and any 
supplements that you wish to make thereto will be included as 
well. It is always a pleasure to have you here before the 
Committee. There was a time when you spent a good deal of your 
life here in this Committee room when we were doing TSA.
    Now, let's go to the funding issue, because I think that is 
at the core of much of what is happening. It is true that the 
Office of Management and Budget sets the fee scale, is it not?
    Mr. Jackson. The Administration does, and----
    Mr. Oberstar. OMB makes that decision.
    Mr. Jackson. The Administration does, and OMB is part of 
the Administration, yes, sir. I am not going to run away from 
the Administration in that, Mr. Chairman.
    Mr. Oberstar. Specifically, it is done, I know, I have been 
dealing with the green eyeshade folks for 40 years. But the fee 
is not OMB's origination. They didn't create it. It was just 
there. It evolved over time, probably as an adjunct to the 
Federal Public Buildings Fund, in which agencies contribute to 
the fund and from which future structures are built or leased.
    Is this shuffle an appropriate way to fund this security 
function? Have you given that some thought about whether, now, 
in aviation, there is the security fee that passengers pay. And 
it covers nearly all of the TSA operational function.
    Mr. Jackson. Well, maybe not all of it.
    Mr. Oberstar. A good portion. I said nearly. There is a big 
gap, yes, a gap that we need to fill. But it fills what it was 
intended to do largely in the beginning. But that is a 
different mission from this one. And from a budget standpoint, 
you have done a great deal with budgets, does it make a 
difference, does it have a budgetary effect whether the funding 
comes directly from an appropriation and a funding request from 
the Administration to FPS, or through the shuffle from the 
several constituent agencies?
    Mr. Jackson. As you know, sir, that is an excellent 
question. It goes to the heart of what we are struggling with 
in terms of the financial stream. Let me try to answer it as 
honestly as I can and with the intellect that I can bring to 
the topic. I am going to tell you that there are pros and cons 
to this on both sides. Let me just try to eliminate some of 
that.
    Mr. Oberstar. But my question is, is there a budgetary 
effect, pro or con?
    Mr. Jackson. Yes, there is.
    Mr. Oberstar. Answer the question.
    Mr. Jackson. So on that score, for example, there are many 
places in DHS where we are fee-funded, as you have already 
indicated, through TSA. Our citizenship and immigration 
services is virtually entirely fee-funded. That is a legitimate 
way to do business and it works. And Congress in its wisdom 
over the years has continued this method of funding FPS.
    There is one downside, for example, since you have to 
anticipate changes in the services that we need to provide in 
the growth and you have to model those fees in advance of the 
time that you collect them. So there can be changed in the 
environment, changes in the threat, and some lag there as we 
collect them. There are always unknowns with respect to some 
margin of the fee that we would ultimately collect that have to 
do with new buildings opening and closing and delegations that 
might authorize a particular agency not to operate within this 
structure of the same type of fee collection.
    Most of the agencies, for example, to whom we have 
delegated the responsibility for doing their own guard service, 
for example, are paying the basic fee that is our basic service 
charge, which covers the perimeter outside, not the work that 
is done inside the building. So I think that you could, in 
principle, imagine paying for this both from direct 
appropriation and from a fee. The fee works, it just requires a 
little bit of skill. It also honestly, when it is at the bottom 
of the line, when it has hit DHS now, it is no longer part of 
the big rent payment that you make to GSA and all of the IT 
office space, HR, lawyer expenses that were bundled at GSA into 
serving the FPS needs are gone now. We are having to pay for 
those out of this fee.
    So it does put a big spotlight for our Federal partners on 
that fee. It creates some discontent, as I mentioned to you 
earlier, from the Judiciary testimony earlier.
    Mr. Oberstar. Yes. The budgetary effect is that this cost 
does not appear on the books of the Department of Homeland 
Security, it appears on the books of the several constituent 
agencies housed in the respective Federal buildings, correct?
    Mr. Jackson. That is correct.
    Mr. Oberstar. From a budgetary standpoint, if it is $100 
million, just to pick a number out of the air, it has no 
relationship to anything, if it costs $100 million in fees from 
the several Government agencies who are paying it out of their 
appropriated funds, or if it is $100 million appropriated to 
and allocated to the FPS. The budgetary effect is nil.
    Mr. Jackson. I think that is right, sir. I am not a total 
budget geek here.
    Mr. Oberstar. I am not asking you to certify this. It will 
not be covered under your oath.
    Mr. Jackson. Tell me when that time period stops, sir. You 
are getting straight answers all the time.
    Mr. Oberstar. But from the standpoint of the public and 
from this view of the Congress, there is greater transparency 
in the latter.
    Mr. Jackson. I would argue there is substantial 
transparency in this one. Because we know how much money comes 
and hits the bottom line as revenue. Instead of showing it as a 
budget item all placed in one location, you are still seeing 
that same total dollar figure, and you are getting something 
additional of value, which is to say, you have a greater degree 
of transparency into where those services are actually coming 
from, who we are helping, how we are doing it, in what 
proportion and where those priorities and risks are.
    Mr. Oberstar. Now, we have, is it correct to say that fully 
loaded cost for an FPS officer grade 8 is roughly $100,000?
    Mr. Jackson. It is $121,000, sir.
    Mr. Oberstar. And a fully loaded cost for a contract guard 
is in the range of $83,0000?
    Mr. Jackson. It is $83,720 is our estimate.
    Mr. Oberstar. Are we getting value for value?
    Mr. Jackson. Yes, we are getting value from both. But they 
are very different.
    Mr. Oberstar. What are the values?
    Mr. Jackson. They are different functions.
    Mr. Oberstar. They are different missions.
    Mr. Jackson. Different missions, yes, sir.
    Mr. Oberstar. And different training levels?
    Mr. Jackson. Exactly.
    Mr. Oberstar. Skills?
    Mr. Jackson. Exactly. They are not law enforcement 
officials. They don't have arrest authority, they don't have 
the same set of responsibilities, training and skills that the 
law enforcement officers have. But as I have explained in the 
training curricula that we are trying to impose in a 
disciplined and systematic way, there is a substantial 
requirement. In our days of talking about the pre-TSA 
screeners, you could basically become a screener in a morning. 
And here what we are talking about is substantial training, 80 
hours of training, basically.
    So that is not an inconsequential requirement when you add 
also the annual qualifications and the certifications that are 
ongoing.
    Mr. Oberstar. Yes, but there is recertification, 40 hours 
every two years for a contract officer and every year for----
    Mr. Jackson. Exactly, appropriately so.
    Mr. Oberstar. Are there circumstances, other circumstances 
in which an individual Federal office building among the 
several agencies, where one of them opts out to contract with 
private security guards and they operate in the same structure 
with FPS officers?
    Mr. Jackson. I am not sure I understand the question.
    Mr. Oberstar. What I am getting at is whether, and I ask 
the question blind, which in a hearing like this I don't like 
to do, because you are never sure of the answer you are going 
to get. What I am getting at is whether there are situations in 
which there are multiplicity of services.
    Mr. Jackson. There are a variety of services that do 
sometimes overlap in the same buildings. So for example, if we 
have one tenant, think of the first one, which is built into 
our basic services agreement. It covers the work that my 
colleagues were speaking about, of the police officers who 
provide perimeter security and patrol. And also our people who 
do the evaluations of how to structure the security for a given 
building, the inspectors. That is paid by the basic fee.
    Inside the building, there is a building-specific fee. So 
for example, the building that Congressman Wu talked about 
early in his testimony did not have a guard force at the front 
door. It would have to be paid by an assessment for that 
specific building, by the occupants of that building. That 
building has both Federal and private sector tenants and they 
have a security committee that works with our FPS officers to 
determine what is the best set of security tools and can they 
afford it and will they pay for it.
    So that is something of a negotiation that we have to do 
with each of the buildings in which we operate to say what 
level of security do we recommend. And remember, that is 
exactly where we are trying to beef up our team, to be standard 
setters, to look across and see best practices, to make certain 
that we are giving good counsel about risk-based investments to 
these buildings. But the individual tenants ended up having to 
pony up and pay.
    So sometimes we could be in a building where FPS is 
providing private contract type of assets, cameras or the like, 
to a portion of the tenants and another contractor is doing so 
directly for another Federal agency.
    Mr. Oberstar. Well, I asked the question earlier of the 
officers who were testifying about the effect of a survey that 
was done for appropriate staffing levels. And I want to ask you 
if you have completed review of that issue. I refer to the 
report, the internal report on the Federal Protective Service 
transition to fiscal year 2008 budget. And you said that was an 
interim report. Do you have it completed?
    Mr. Jackson. We do have a more complete and more 
contemporary version of that.
    Mr. Oberstar. When would we get a copy of that?
    Mr. Jackson. I have to ask when it would be available. 
Within a month or so. What we are trying to do is let our new 
director, these reports were built bottom up from each of the 
11 regions. We have given advice to the director----
    Mr. Oberstar. Have you determined whether ICE is the final 
location for FPS and why, and when you are answering that, why 
can't it stand on its own? Why does it have to be subsumed into 
another agency?
    Mr. Jackson. I do believe that ICE is the right home. One 
of the reasons I believe that ICE is the right home is that 
this organization is in a considerable need of the financial 
discipline, the management supervision, the financial controls, 
the IT systems, and the support that comes from having a big 
brother that makes you part of his family.
    Mr. Oberstar. Yes, well, we saw FEMA having big brother 
oversight, and it just went to hell in a handbasket, Mr. 
Secretary.
    Mr. Jackson. Well, we just gave FEMA a lot more plates to 
say grace over. And I think in this case, honestly, Mr. 
Chairman, ICE has made this a very significant priority. I 
personally in our second stage review looked and talked to 
other operating component heads in the Department about whether 
there was a better place for it. We had those types of 
conversations with virtually every component in the Department. 
I came to the conclusion, and Mike Chertoff came to the 
conclusion that this was the best home for this organization, 
inside the Department.
    By being part of just a slightly larger organization, and 
ICE is a large organization, the largest law enforcement 
organization in the Department, they have a natural nexus to 
the law enforcement mission in support for this. But they also 
have these management controls and financial controls and 
procurement assets that are inherently part of ICE that are 
being used to support the mission of FPS. I think that is a 
very valuable thing at this stage in FPS' evolution.
    Mr. Oberstar. Well, in your, in your testimony, you present 
the work of the Department of Homeland Security as taking over 
a problem-ridden Federal Protective Service and correcting it. 
Instead, what has happened is, the number of contract guards 
has gone up, the number of professional officers has gone down. 
There are more facilities that are unprotected by FPS officers 
than previously. And it does not appear that security is 
improved; rather, it appears to be dis-served.
    Mr. Jackson. I think we are improving security, and I think 
we are clearly improving the management, discipline and 
financial accountability for the taxpayers' investment that is 
taking place within FPS. Are we at the perfect stage? No, 
absolutely not. But we are repairing fundamental ruptures in 
how the organization was supported.
    The last thing I want is to say, I am not going to have 
enough people to do this mission. But it is also equally 
irresponsible for us to say, we are not going to train them, we 
are not going to let them travel, we are not going to let them 
have the skills, the tools, the support they need to do their 
job. We are here cutting our losses and focusing on the things 
that really matter most, which is this somewhat new vision of 
where FPS' core capabilities should be focused.
    And that is why I welcome this dialogue with the Committee, 
who needs to own this with us, to think through this with us 
and to understand it in the same way we do. But we are trying 
to beef up this capacity to look at a building, see its 
vulnerabilities and insist upon the work force that is 
contracted out to meet standards that we will define, to go in 
and audit them and to watch them and to work with them to make 
certain that they are doing the job right.
    So that is the skill set we are bumping up. That is why we 
are adding a very considerable number of people to the work 
force for the inspectors.
    Mr. Oberstar. You cited earlier sort of evaluating 
facilities into various size, large size and mid-size and 
smaller size. Is Oklahoma City a mid-size city?
    Mr. Jackson. I would say so, yes, sir. It is a larger city, 
it is not the small size I was talking about. I will give you 
just an example.
    Mr. Oberstar. Will it have a force?
    Mr. Jackson. Yes, it will have a force.
    Mr. Oberstar. All right. FPS is historically, as we have 
discussed, a fee for service operation. ICE is not.
    Mr. Jackson. That is correct.
    Mr. Oberstar. How do you mesh those two cultures within the 
same entity?
    Mr. Jackson. Where your money comes from, to be honest, 
doesn't have anything to do with the culture and the ability to 
operate it.
    Mr. Oberstar. That partially answers the question I asked 
you earlier.
    Mr. Jackson. It is a Government convenience that has been 
established for us. We are going to make either way that the 
revenue stream arrives on the table work. But in this case, 
there is a strong, I think, affinity because of the law 
enforcement mission of ICE and their capacity to work on 
investigations and operational details with our guys.
    Mr. Oberstar. Is the culture of FPS likely to be shifted, 
modified from community policing, from crime prevention, like a 
traditional uniformed police department to be molded into the 
service of ICE? Are you going to maintain the separate culture 
and identity and mission of FPS within ICE?
    Mr. Jackson. Yes, sir, absolutely. We are trying to, I know 
it seems peculiar and even to some of my colleagues in FPS, but 
what we are trying to do is preserve their capacity to excel at 
their unique mission and to give them the focus and the mission 
clarity and the tools necessary to be successful. We are not 
trying to make one big mush and say it is all ICE. What we are 
saying is, ICE is the administrative home for a very important 
and unique asset, FPS, and we want to burnish and support FPS 
within that framework.
    Mr. Oberstar. Well, it is an infrastructure protection 
service, that of FPS. We want to make sure that continues, and 
we don't want to leave Achilles heels, for want of a better 
term, around the Country. Had the Murrah Building been the 
result of an Al Qaeda operative, it would have turned the 
Country into a tailspin. It is bad enough that they hit New 
York City. But to strike in the hinterland of the United 
States, in the heartland of the Country, to have something like 
that go off in Duluth or in Billings, Montana, as a result of a 
terrorist assault would be destructive.
    So be careful, be careful. We are looking very carefully at 
the beginning of this process at those facilities that have 
been left vulnerable, if you will.
    Mr. Jackson. Mr. Oberstar, there is really almost no one in 
Congress that I admire more for his capacity to focus with 
passion on these issues, that is why I enjoyed working with you 
so much, even when we disagree on the particulars. We are in a 
constant balancing game that 9/11 has magnified to a whole new 
level. It is trying to decide how to balance security and 
safety with mobility and affordability in some appropriate 
balance. We are looking all the time at the risks from all 
sorts of sources from the tragic type of events that we saw in 
Blacksburg earlier this week to the Murrah Building itself.
    So I cannot guarantee that we will always find that balance 
with some perfection. Because after an attack or after an 
incident, it will look clear that oh, gee, we should have put 
more at it. We are trying to work with you here and to find 
where that right balance point is, how to support this 
important team, how to take the men and women who put that gun 
on every day successful and to protect them and to defend them 
and support them.
    So I think we are finding a relatively reasonable and 
affordable balance point right now. It could be tweaked, and we 
will be happy to talk to you about tweaks.
    Mr. Oberstar. We will do more than tweaking. We will do 
some very serious in-depth discussions, starting with the 
manner in which FPS is funded. It has not been revisited in a 
very long time, should have been. We need to rethink that 
process from a budget standpoint and from an individual agency 
service standpoint. The respective roles of security guards and 
FPS officers, the right-sizing of facilities, you know, we go 
through that periodically at FAA and right-sizing towers and 
centers and TRACONs. You know that from your work at the 
Department. That is a matter that we look forward to working in 
a very intensive, cooperative fashion, and we should not be 
waiting four months for an answer to a letter we sent in 
December.
    Mr. Jackson. Yes, sir. If there is a letter that has been 
four months outstanding, I don't know about it and I will get 
you an answer if I can.
    Mr. Oberstar. We have to vacate this room, because we have 
another hearing coming.
    Ms. Norton. I would like to give Mr. Bishop the 
opportunity, and of course, we have another panel, Mr. 
Chairman.
    Mr. Bishop. Thank you, Madam Chair.
    I want to focus on a facility that is in my district. But 
before I do, what I hear you saying is that the decision to cut 
the number of Federal Protective Service staff by 25 percent is 
a decision that at least in part is driven by the inability to 
identify offsetting revenue. Is that essentially what you are 
saying?
    Mr. Jackson. I am saying that the revenue issue is a real 
and meaningful thing that we are trying to find the balance.
    Mr. Bishop. All right. We are saying the same thing. I am 
not going to ask you to comment on this, but I am forced to 
observe that the very same Administration that thinks that this 
is a good idea is the Administration that is presiding over the 
expenditure of $19 million an hour on a war of choice, is 
presiding over the subject of the hearing we are going to have 
in this room in about an hour, in which we have squandered tens 
of millions of dollars on bolts that no longer can be used 
because of design flaws. This is one of the reasons why I think 
people have lost faith in the way in which we make decisions 
here in Washington. But I will leave that aside.
    I have a facility in my district called the Plum Island 
Animal Disease Laboratory. In September of 2003, the Government 
Accountability Office issued a report on the inadequacy of the 
security at that facility and cited several specific ways in 
which the security was inadequate. The response of the 
Department of Homeland Security at that time was to place two 
Federal Protective Service people on the island. Those people 
have now been withdrawn and there has been, as I understand it, 
a memorandum of understanding entered into with the Southold 
town police force, which is a first-rate force, but very small. 
They, as I understand it, are expected to be the first 
responders for any incident that takes placed on the island. 
They are very good, but they are separated from the island by a 
45 minute boat ride.
    So my question to you, in response to a question that was 
put to you by Chairman Oberstar, you said that you believed 
that the net effect here was that we were improving security. 
How do you square that statement with what specifically is 
happening on this facility in my district?
    Mr. Jackson. I would like to be able to get back to you on 
the details of what is going on on Plum Island. I am 
exquisitely aware of that facility and the importance of that 
facility to the Nation. It is not a GSA-controlled facility, so 
it doesn't flow under the normal revenue stream and controls 
that----
    Mr. Bishop. But it is a DHS-controlled facility.
    Mr. Jackson. It is a DHS facility, yes, sir. Therefore, and 
it is a very important DHS facility that deserves our 
protection. My understanding of where that is is that our new 
Under Secretary for Science and Technology has worked on this 
issue to be able to make certain that we are providing 
appropriate security. I would like to be able to consult with 
him.
    Mr. Bishop. In fairness, he has responded to a letter that 
I sent to him. But the response is that we have this MOU with 
the Southold town police force. So that is a response that----
    Mr. Jackson. I understand your point.
    Mr. Bishop. It looks good on paper, yes, we are dealing 
with it. But in the real world, to have the response mechanism 
be separated by 45 minutes worth of a boat ride, I think you 
would agree fall short of what we ought to be striving for.
    The other thing I would say, my current understanding is 
that in order for the Southold town police force to have arrest 
authority on Plum Island, they must be first deputized. My 
current understanding is that they are not yet deputized. So 
following from that, if an incident were to take place today on 
Plum Island, what law enforcement body would have authority to 
execute an arrest?
    Mr. Jackson. I will get back to you with that answer. It is 
a very fair and appropriate question. Let me just get you the 
facts.
    Mr. Bishop. Okay. Let me just go one further thing. This 
was a question that I asked before with the panel of officers. 
New York is taking a 45 percent hit on the allocation of 
officers, according to the chart that I believe is part of your 
presentation. We are going from 99 officers in Federal Region 
II to 56, which is a reduction of 43. I am just doing it in my 
head, it is roughly a 45 percent reduction.
    Mr. Jackson. I think that is the same problem that I spoke 
to Chairman Oberstar about, which is the version of the paper 
that I think the Committee has gotten possession of is not the 
version that the ICE folks and the FPS folks are working on.
    Mr. Bishop. So you are saying that when we get the same 
version that you have I will be looking at different numbers 
for New York that will be somewhat less distressing than these?
    Mr. Jackson. I think so, yes, sir.
    Mr. Bishop. Okay, thank you. Thank you, Madam Chair.
    Mr. Oberstar. The Secretary has committed to submitting a 
complete accounting for all of this to the Committee in the 
next month or so.
    Ms. Norton. Thank you very much. I want to thank you, Mr. 
Secretary. Just a further question. I had wondered whether or 
not there was a functional equivalent to 9-1-1 in the Federal 
Police Service so that a Federal employee can dial it. Is 
there?
    Mr. Jackson. A 9-1-1 for FPS?
    Ms. Norton. You dial 9-1-1, you are dialing into a backup. 
For FPS, is there a number like 9-1-1 that Federal employees 
have access to?
    Mr. Jackson. Is there a single number? I think so.
    Ms. Norton. What is it?
    Mr. Jackson. One eight seven seven for FPS, 4-1-1.
    Ms. Norton. That is outrageous. Why do you think 9-1-1 was 
invented?
    Could I ask you, sir, to go back and at least do this 
rudimentary thing, for the FPS, I am very concerned whether or 
not there is an FPS presence or not that is not some shorthand 
way to--I don't know these folks in Congressman Wu's office 
knew where to call. I bet they were not carrying that around in 
their head.
    Mr. Jackson. They were not. We provide the numbers for 
local response to our occupants in our facilities, so that they 
know ho immediately to get access to the security services in 
their building.
    Ms. Norton. I am asking for the functional equivalent of 9-
1-1. If it is an FPS, you heard testimony for example from New 
York, they were still waiting to come an hour later and FPS has 
been right there. We don't need to hear that about New York. If 
there is a number, it could differ place to place, I don't know 
why it shouldn't be a nationwide number, I don't know, 8-1-1. I 
don't know what it is. But could I ask you to report back to us 
in 30 days whether or not that is feasible to do?
    Mr. Jackson. Yes, certainly.
    Ms. Norton. I am going to let you go. Let me just say to 
you on two points, if you want us to add anything on the, some 
agencies are dazzled by brass. So if someone says they have 
been in the military, that is the functional equivalent of 
everything we need, I don't have any way to judge whom you 
chose. You indicated that you chose somebody from the Marine 
Corps. My first notion would be, was he in the Marine Corps 
police, would have some police experience in Chicago some years 
back. The best qualified person, as I understood, was a deputy 
director who had that experience and the managerial experience. 
We looked at who is chosen in the Department of Homeland 
Security, particularly after Katrina and being dismayed at what 
it took to become a high level official in the agency then. So 
I want you to know that it is hard for me to understand, except 
for some overlay of military credentials, why being in the 
Marine Corps, unless you were in the Marine Corps police. If 
you had Federal experience, there may be other reasons. But 
apparently this was deemed by the credentials best qualified.
    I want you to know on inspectors versus patrol, you heard 
me say perhaps to the officers that I kind of like 
efficiencies. Those of who believe in government ought to take 
the lead on efficiencies. It is hard for us to reconcile double 
duty and efficiencies. It is hard for us to reconcile double 
duty and cutting the work force as efficient. I want you to 
know that our concern is rooted in fact. In 2007, the ICE FPS 
budget showed 1,543 officers would be needed to do the FPS job. 
Now apparently 915 and going down every day. This in spite of 
the fact that everybody else over here has gulped up, because 
we are adding duties. So everywhere where there are high level 
Federal officials, like in the Congress or in the White House, 
you stumble over a cop. Here we reduce it, and yet tell them 
you are supposed to be an inspector, you are supposed to look 
at everything.
    My concern, patrols. We are not here to simply say, respond 
when the blow the place up. You understand full well as a high 
level official in Homeland Security, the point is prevention. 
We fail to understand how lack of patrols assures the safety of 
Federal employees, visitors, judges, and the like. We are very 
concerned about the six month figures, 1,300, I mean, 850 
thefts, 33 aggravated assaults. These are nation figures. One 
hundred seventy-seven incidents involving weapons and 
explosives. We are living here in the shadow of Virginia Tech. 
It is disturbing.
    We have heard your testimony. I wanted you to leave with my 
concerns about the disparity between increased duties and a 
decreasing work force and my lack of confidence that this kind 
of disparity promotes efficiency. And you are talking to a 
member who likes the notion of efficiency and who does not see 
a problem with contractors, risk based, does not see a problem 
with people being inspectors and peace officers. But when I 
learned that nobody is patrolling to prevent incidents of 
terrorism and crime, then you get my attention.
    Sir, if you have anything to say before you leave the 
panel, I would be glad to hear it.
    Mr. Jackson. No, ma'am. Thank you for the focus you are 
bringing to this issue. We look forward to working with you.
    Ms. Norton. Thank you. We will be seeing you on the new 
headquarters shortly.
    Mr. Jackson. Good.
    Ms. Norton. Thank you very much, Mr. Secretary, for all 
your patience and for your very informative and graciously 
given testimony.
    Mr. Jackson. Thank you, ma'am.
    Ms. Norton. The last panel, David Wright, President of the 
American Federal of Government Employees, Local 918; and Chuck 
Canterbury, President of the Fraternal Order of Police.
    Gentlemen, we apologize to you. I think you understand why 
we had to proceed in some detail with those witnesses, and we 
did not mean to give you short shrift.
    I wish you would each raise your right hand and respond. Do 
you solemnly swear the testimony you will give before the 
Committee on Transportation and Infrastructure will be the 
truth, the whole truth and nothing but the truth, so help you, 
God?
    [Witnesses respond in the affirmative.]
    Ms. Norton. Please be seated.
    Which of you would like to proceed first?
    Mr. Wright. Madam Chair, I will proceed first. I have a 
verbal statement I would like to open with.

 TESTIMONY OF DAVID WRIGHT, PRESIDENT, AMERICAN FEDERATION OF 
 GOVERNMENT EMPLOYEES, LOCAL 918; CHUCK CANTERBURY, PRESIDENT, 
                   FRATERNAL ORDER OF POLICE

    Mr. Wright. Thank you, Madam Chair, members of the 
Committee.
    On behalf of the FPS police officers, inspectors, special 
agents and other key personnel at the Federal Protective 
Service, represented by AFGE, I am David Wright, President of 
Local 918, the National Federal Protective Service Union. I am 
also a veteran FPS police officer-inspector of 21 years.
    Madam Chair, it appears that we are at one of the lowest 
points in this agency's history and at a critical decision 
point for its future. I find it disturbing that I am testifying 
before you and the Committee on the eve of the 12th anniversary 
of the destruction of the Alfred P. Murrah Federal Building in 
Oklahoma City on April 19th, 1995, defending the notion that 
Federal law enforcement officers on 100 percent proactive 
patrol are the most viable front line protection against 
terrorism and crime at Federal facilities.
    The Federal Protective Service is the only Federal agency 
charged with a specific mission of protecting and securing 
virtually all GSA-controlled facilities across the U.S., some 
8,800 in total. These buildings often house sensitive and high 
level Government offices, Federal court buildings, numerous 
agency headquarters and public access facilities, such as 
Social Security and Immigration offices. I need not remind 
anyone in this room, particularly officials at the Department, 
that the most infamous terrorist attacks on U.S. soil occurred 
either at Federal buildings or in buildings which house Federal 
agencies. For example, the Murrah Building in Oklahoma City on 
April 19th, 1995, and at the World Trade Center on February 
26th, 1993 and September 11th, 2001.
    As an FPS officer, it is extremely difficult for me to 
imagine a more likely strategic or symbolic target for 
terrorists than a building that houses U.S. Government 
operations. Despite an obvious need to invest in or rebuild 
this critical Homeland Security Agency responsible for 
protection of Federal facilities, the Department proposal will 
result in the elimination of most direct law enforcement 
services by FPS.
    Two hundred forty-nine Federal Protective police officer 
positions directly responsible for law enforcement patrol and 
response to Federal properties are to be eliminated. Most FPS 
special agent positions responsible for prosecution of Federal 
crimes, intelligence gathering and dissemination will be cut.
    The Administration's budget submission offers this 
description of its plan for FPS in fiscal year 2008. In 2008, 
the Federal Protective Service will set security standards and 
enforce the compliance of those standards to protect Federal 
facilities. Those few words in the budget submission belie a 
proposal that is both dangerous and in our opinion, foolhardy, 
in the post-9/11 world in which we live. If anyone in this room 
doubts me on this, let me quote directly from a document 
prepared by U.S. ICE and FPS officials for the FPS regional 
directors, dated December 20th, 2006, where the agency 
describes the impact of the proposal:
    ``No proactive patrol to deter attack planing and detect or 
deter suspicious and criminal activity; no response to calls 
for police service to protect Federal employees and visitors, 
or to investigate crimes at Federal facilities in areas where 
FPS will no longer have a presence; no FPS presence in 
approximately 50 current cities; participation in FBI joint 
terrorism task forces reduced to 12 special agents from 24; 
special agents available to investigate serious crime reduced 
to 14 from 58; no night or weekend police response or service 
anywhere; largest reductions in New York and Washington, D.C. 
due to proactive activity elimination.''
    And the list goes on, Madam Chair. We have attached a copy 
of this document for the record.
    The agency has since issued statements to employees and the 
media denying the official nature of the document and describe 
a plan which leaves out the above particular highlights. 
Nonetheless, these are the facts as detailed by the agency and 
they are, in our view, shocking.
    Madam Chair, members of this Committee, I urge you to 
reject this ill-conceived initiative proposed because of a 
financial deficit due to problems that the Department has 
neglected to remedy. Before we decide to eliminate this core 
FPS responsibility, let us pause and take a close look at 
whether this is the direction we really want to go. Do we 
really want to reduce this agency to an essentially regulatory 
body with no real law enforcement responsibilities? Do we 
really want to rely on a few hundred inspectors to oversee and 
ensure compliance with security guidelines for a vast work 
force of 15,000 private security guards? And finally, do we 
really want to reduce one facet of our Nation's essential 
homeland security protection just six years after September 
11th? I don't think so, and pray that you don't, either.
    Thank you.
    Ms. Norton. Thank you very much, Mr. Wright. We will go to 
Mr. Canterbury.
    Mr. Canterbury. Madam Chairperson, thank you for the 
ability to be here. I think I probably bring a very unique view 
to the panels that you have had today in that I represent State 
and local police officers. I am a retired deputy chief of about 
a 250 man police department in South Carolina, and I am 
President of the National Fraternal Order of Police, the 
largest police labor organization in the Country.
    I have heard quite a bit today about police response from 
State and local, MOUs, cooperation. I think the most important 
thing that I have heard here today was when Mr. Oberstar talked 
about human life versus capital. The new HR term in the Country 
is human capital. Well, where I live, that is people.
    One of the things that as a State and local police officer 
I want to let you know is that we are going to respond to calls 
for service when called by citizens in our States. But I will 
tell you that the added responsibility of responding to Federal 
buildings will just add to the over-burden that local law 
enforcement has today. We talked about the 750,000 State and 
local officers that are out there. That is a reduction over 
what there was five years ago in the United States. Our funding 
has been cut over $2 billion, as Ms. Norton, as you relayed on 
several occasions today. On top of that, more responsibilities 
with these cuts.
    We talked about the honesty of ICE in this report. I think 
it was refreshing to see that they talked about being a 
reactive rather than a proactive force. One of the things that 
I have testified before Congress before is that we would much 
rather be a preventive force than have to send red, shiny fire 
trucks to clean up a problem.
    When we are here talking about appropriations and homeland, 
we believe that prevention would be much better than having to 
react. We bring that to this Committee again today and say that 
our brothers and sisters in the Federal Protective Service, I 
will let you know that if I respond to a Federal building in my 
jurisdiction, I do not want to be met at the door by a contract 
security guard that slept in a Holiday Inn Express last night. 
I want to be met by a professional law enforcement officer who 
has attended FLETSI, who has received the same training level 
that I have received, and that I could interact in an emergency 
situation, having full faith and confidence that as a police 
officer I would enter that building with equal or even better 
skills than the State and locals.
    That is not to disparage contract security officers. They 
have a job to do. But they do not have the same training, 
capabilities, knowledge, skills and abilities of the police 
officers that are protecting these Federal buildings today. So 
we urge you to look at those issues.
    But the most important thing that I have heard out of this 
is, I don't believe that DHS or ICE have any real goal to 
reduce force for efficiency. It is a budgetary issue. I sit 
here today and ask that this Committee relay to the powers that 
be in this matter that whether it is fee-based or 
appropriations-based, FPS needs to be funded to a level to 
protect the citizens of the United States. That is the most 
important thing I heard here today. I would like to relay on 
behalf of the Fraternal Order of Police that we support this 
Committee's efforts to look at that and protect human capital, 
which is the most important thing that we as police 
professionals do.
    Thank you.
    Ms. Norton. Thank you, Mr. Canterbury.
    Mr. Graves, do you have any questions?
    Mr. Graves. No, thank you, Madam Chair.
    Ms. Norton. Let me just ask you quickly, you have heard us 
question the line officers, you have heard us question top 
management. As you might imagine, many of our questions have 
already been answered. I do want to say that the training level 
bothers me a great deal. In this time of budgetary constraints, 
I think all agencies, yes, even security agencies, have to be 
prepared to accept less than they would desire.
    But for that reason, it seems to me the training level, you 
would expect better training levels, precisely if you believe 
you must have fewer officers. That is one problem I have.
    Another problem I have, it makes me wonder about the theory 
of law enforcement. For example, and I have to ask this 
question of you two experienced law enforcement officers, one 
of the reductions is in explosive detection dog teams. Only in 
18 of the largest cities, 10 cities will no longer have the 
capability. Teams will be reduced from 60 to 29.
    Now, as a law enforcement matter, I am trying to think 
through, how do I reduce personnel consistent with a risk 
analysis? One of the things that would occur to me, and here I 
am speaking absolutely as a layman, leave aside patrol and the 
other areas, one thing that would occur to me as one of the 
things we most fear, some kind of bomb or explosion, it seems 
to me that I would say, well, canine it seems to me is one of 
the things I would like to, if anything, increase, where I am 
going to have less people. Because these dogs, at least the 
best of them, are extremely efficient, better than machines. I 
have a large problem with the reduction in personnel and the 
reduction in canines, sitting up here in the most secure 
facility on the planet, and saying to Federal employees, you 
all will get by.
    Now, enlighten me on the canine, the role of canine and 
whether or not if anything they might help if they feel they 
must reduce or whether it makes some sense in your view, in 
light of what you know about risk, to reduce canine patrols as 
well.
    Mr. Wright. Madam Chair, the canine explosives detection 
program came about as a result of September 11th, 2001. FPS 
went to the finest training facility in the world for canine 
explosives detection, Auburn University. We trained 60 canine 
officers and we have expended untold amounts of funds getting 
these teams up and running. To have even the suggestion of a 
proposal to cut these critical detection teams is----
    Ms. Norton. Wait a minute. I know how difficult it is to 
train them, to get the very best. Are you saying when they go 
they will, where are they going to go to after we have invested 
in the training? What are we going to do with them?
    Mr. Wright. My understanding is that it would be a complete 
elimination of approximately 29 teams.
    Ms. Norton. Well, one of the things we are going to have to 
find out for the record, I will say to staff is, given how 
extraordinarily valuable canine dogs are and people who are 
trained in handling them, we need to know what they intend to 
do with canine that they are reducing. I certainly hope they 
will be somewhere in the Federal sector, so we can retrieve 
them at some point. That would bother me a great deal.
    Mr. Wright. I could only assume that they would be offered 
to local agencies or other Federal agencies.
    Ms. Norton. Let me ask Mr. Canterbury, where in South 
Carolina, sir?
    Mr. Canterbury. Myrtle Beach.
    Ms. Norton. What would be, you are the Myrtle Beach Police 
Department?
    Mr. Canterbury. Actually the county police, Horry County. 
But it is in the area that Myrtle Beach----
    Ms. Norton. What is the county?
    Mr. Canterbury. Horry County.
    Ms. Norton. Give me your assessment of an MOU with Horry 
County that would say, now, you all pick up the slack here when 
we can't get there. How would you as a police chief respond to 
that? Would you sign such an MOU?
    Mr. Canterbury. Without an agency to have the MOU with, 
there wouldn't be any need. We would be charged with making 
that response. There wouldn't be a need for an MOU in a county 
that FPS is gone. We would respond, but it would be on a 
priority basis with all the other calls in that jurisdiction. 
So most local politicians, regardless, are going to charge the 
local police department with making that response.
    But in my particular area, we are a tourist area, we don't 
have an FPS unit. But I am very close to Charleston, which 
does. And I know, for instance, where I worked, our canines for 
explosives came from 100 miles, when I was still employed.
    Ms. Norton. Came from what, I'm sorry?
    Mr. Canterbury. Came from 100 miles away. We did not have 
canine. We had a 250 man police department.
    Ms. Norton. That's it, around the Myrtle Beach area?
    Mr. Canterbury. There is now one explosive canine in the 
county, and that is a city jurisdiction.
    Ms. Norton. But there are no Federal facilities?
    Mr. Canterbury. Not there that is protected. But around the 
Country, I have traveled all over the United States as 
President of the Fraternal Order of Police, and I have dealt 
with them in all these jurisdictions. But when they cut the, 
especially the explosive teams, a lot of those cities are not 
going to be cities that have their own canine explosive units. 
So even if you do sign an MOU, you are not going to get an MOU 
that will leave that standard there.
    We talk about tactics and standards, Timothy McVeigh used a 
truck on the building in Oklahoma City. Al Qaeda learned from 
that and used airplanes in New York. They will adjust their 
tactics, and they have shown that in Iraq and they have shown 
that in the United States. Terrorism is terrorism, whether it 
is domestic or foreign. Those tactics will adjust. Professional 
police officers are better qualified to deal with that than 
contract security guards.
    Ms. Norton. So in your professional judgment, will these 
MOUs be observed, such that they would respond quickly and 
adequately to protect Federal employees and visitors from your 
experience with local police officers, right?
    Mr. Canterbury. Not to a satisfactory standard. They will 
be adhered to, because they are still going to respond to a 
call for service. That is what we as police officers do, 
regardless. But that we prioritize calls. What we would think 
would be a priority as a local police officer may be totally 
different when you are inside a Federal facility and you don't 
know what is in that facility, you don't know what they are 
guarding in that facility. No, the response would not be the 
same. They would get a response, but it would not be the same.
    Ms. Norton. I have lived in a number of jurisdictions. A 
constant complaint of residents is, they didn't come as quick 
as I wanted them to come. I understand that pressure. I 
understand the pressure on local law enforcement. I am not sure 
I want to put any more pressure on local law enforcement on an 
unfunded mandate. That takes colossal gall----
    Mr. Wright. We agree.
    Ms. Norton.--to save money in the Federal sector, at the 
expense of local law enforcement. And I don't know what we can 
do about it. They are operating within an OMB budget. We do 
have a new Congress, and we are certainly going to look to see 
what we can do about it. We are not opposed to efficiencies. I 
believe that everybody is going to have to find greater 
efficiencies.
    You heard me say that I am not even opposed to the notion 
of an inspector, these inspectors will, I think for the most 
part, be peace officers. It is an interesting idea. I know one 
thing, the job description about people, employee awareness and 
the rest, and that kind of duty, is not intended to prevent day 
to day terrorist and criminal activity. It is a long range and 
good approach to making sure that you are shored up.
    The average visitor, the average citizen wants to know is 
there somebody out there who has made sure that the bad guys 
can't get in.
    Mr. Wright, did you have a final comment on that?
    Mr. Wright. Yes, ma'am. On the inspector versus FPS police 
officer position, I would like to clarify. All inspectors are 
peace officers. And we do our share of patrol. The real 
difference here is in my duties as an inspector, I am sitting 
in an office preparing substantial reports. I am out in the 
field measuring properties, conducting security assessments. 
All that time takes away from me being out there patrolling the 
streets. Whereas police officers are out there 100 percent of 
their time, patrolling and surveilling.
    Inspectors, we do our share of patrol and response, but it 
is really the police officers that carry the load in that 
aspect.
    Ms. Norton. Again, understand I am speaking from the point 
of view of somebody who has heard a lot of testimony, done a 
lot of work on risk consequences, when it comes to homeland 
security. If anything, I have seen from day one responses when 
we were all truly amateurs, I could only call over-response, 
before the whole notion of how you do a risk-based analysis and 
do your personnel accordingly. I think Americans are something 
else if they expect somehow to be treated as if we have 
individual protection. So I step back from this, having gone 
through the ritual with DHS of a risk-based analysis. I 
understand that if you live in somewhere, forgive me, the 
hinterland and not in D.C., you deserve some protection. But we 
require them to do a risk-based analysis so they can protect 
the big targets, like New York and D.C., without leaving people 
totally uncovered. We wasted billions of dollars, as has been 
shown in testimony after testimony, of people who just used the 
money that we threw out there for whatever they could find to 
use it on.
    So I understand how difficult it is where you have more 
than 400 districts who want their share of the money. When it 
comes, however, to protection of this kind, if ever a risk-
based analysis was going to be required, it certain is with 
respect to how do you prevent, let me just use that word again, 
prevent an event in a Federal building. I know you all will 
come if something bad happens. The point of spending any money 
is to keep something bad from happening. We have a tough job, 
because we can't say, hey, we who believe that there ought to 
be pledged to a pay-go, we are not going to enlarge the 
deficit. We have been very critical of the other side in 
enlarging the deficit willy-nilly.
    So we recognize that even as we say this can't possibly be, 
we are going to have to look for ways to in fat enhance the 
funding, enhance the resources and make sure that the FPS does 
not dwindle into an essentially bureaucratic body and no one 
that uses the very expensive training we pour into them and not 
into others.
    I want to once again thank the officers who came and 
offered us first-hand experience. I particularly want to thank 
you, Mr. Wright, and you ,Mr. Canterbury, because you have bene 
most patient of all in sitting through our endless questions.
    Mr. Wright. You are welcome.
    Ms. Norton. I have unanimous consent on testimony to be 
entered into the record from Congressman Barney Frank.
    The record will remain open for five days for entry into 
the record of any other relevant materials.
    I thank you all for coming and the hearing is now closed.
    [Whereupon, at 1:40 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T4797.009
    
    [GRAPHIC] [TIFF OMITTED] T4797.010
    
    [GRAPHIC] [TIFF OMITTED] T4797.011
    
    [GRAPHIC] [TIFF OMITTED] T4797.012
    
    [GRAPHIC] [TIFF OMITTED] T4797.013
    
    [GRAPHIC] [TIFF OMITTED] T4797.014
    
    [GRAPHIC] [TIFF OMITTED] T4797.015
    
    [GRAPHIC] [TIFF OMITTED] T4797.016
    
    [GRAPHIC] [TIFF OMITTED] T4797.017
    
    [GRAPHIC] [TIFF OMITTED] T4797.018
    
    [GRAPHIC] [TIFF OMITTED] T4797.019
    
    [GRAPHIC] [TIFF OMITTED] T4797.020
    
    [GRAPHIC] [TIFF OMITTED] T4797.021
    
    [GRAPHIC] [TIFF OMITTED] T4797.022
    
    [GRAPHIC] [TIFF OMITTED] T4797.023
    
    [GRAPHIC] [TIFF OMITTED] T4797.024
    
    [GRAPHIC] [TIFF OMITTED] T4797.025
    
    [GRAPHIC] [TIFF OMITTED] T4797.026
    
    [GRAPHIC] [TIFF OMITTED] T4797.027
    
    [GRAPHIC] [TIFF OMITTED] T4797.028
    
    [GRAPHIC] [TIFF OMITTED] T4797.029
    
    [GRAPHIC] [TIFF OMITTED] T4797.030
    
    [GRAPHIC] [TIFF OMITTED] T4797.031
    
    [GRAPHIC] [TIFF OMITTED] T4797.032
    
    [GRAPHIC] [TIFF OMITTED] T4797.033
    
    [GRAPHIC] [TIFF OMITTED] T4797.034
    
    [GRAPHIC] [TIFF OMITTED] T4797.035
    
    [GRAPHIC] [TIFF OMITTED] T4797.036
    
    [GRAPHIC] [TIFF OMITTED] T4797.037
    
    [GRAPHIC] [TIFF OMITTED] T4797.038
    
    [GRAPHIC] [TIFF OMITTED] T4797.039
    
                                    

</pre></body></html>
